<html>
<title> - NIST STRUCTURE AND AUTHORITIES, ITS ROLE IN STANDARDS, AND FEDERAL AGENCY COORDINATION ON TECHNICAL STANDARDS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                NIST STRUCTURE AND AUTHORITIES, ITS ROLE
                    IN STANDARDS, AND FEDERAL AGENCY
                  COORDINATION ON TECHNICAL STANDARDS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2010

                               __________

                           Serial No. 111-89

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
55-846PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
JOHN GARAMENDI, California           MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
DANIEL LIPINSKI, Illinois            PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona               
GARY C. PETERS, Michigan                 
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 MIKE QUEAR Subcommittee Staff Director
         MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
            HOLLY LOGUE Democratic Professional Staff Member
             DAN BYERS Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant












                            C O N T E N T S

                             March 23, 2010

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Bart Gordon, Acting Chairman, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................     5
    Written Statement............................................     5

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........     6
    Written Statement............................................     6

                               Witnesses:

Hon. Patrick D. Gallagher, Ph.D. Director, National Institute of 
  Standards and Technology
    Oral Statement...............................................     7
    Written Statement............................................     9
    Biography....................................................    14

Dr. James Serum, President, Scitek Ventures, LLC, and Past Chair, 
  NIST Visiting Committee on Advanced Technology
    Oral Statement...............................................    14
    Written Statement............................................    16
    Biography....................................................    20

Mr. Craig Shank, General Manager, Interoperability at Microsoft
    Oral Statement...............................................    21
    Written Statement............................................    23
    Biography....................................................    26

Mr. Philip Wennblom, Director of Standards, Intel Corporation
    Oral Statement...............................................    26
    Written Statement............................................    27
    Biography....................................................    29

Mr. Andrew Updegrove, Partner, Gesmer Updegrove, LLP
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    34

             Appendix 1: Answers to Post-Hearing Questions

Mr. Andrew Updegrove, Partner, Gesmer Updegrove, LLP.............    48

             Appendix 2: Additional Material for the Record

Statement of Vinton G. Cerf, Ph.D., Vice President and Chief 
  Internet Evangelist, Google....................................    52

 
  NIST STRUCTURE AND AUTHORITIES, ITS ROLE IN STANDARDS, AND FEDERAL 
               AGENCY COORDINATION ON TECHNICAL STANDARDS

                              ----------                              


                        TUESDAY, MARCH 23, 2010

                  House of Representatives,
          Subcommittee on Technology and Innovation
                        Committee on Science and Technology
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Bart 
Gordon [Acting Chairman of the Subcommittee] presiding.
                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

              NIST Structure and Authorities, Its Role in

             Standards, and Federal Agency Coordination on

                          Technical Standards

                        tuesday, march 23, 2010
                               10:00 a.m.
                   2318 rayburn house office building

1. Purpose

    On Tuesday, March 23, 2010, the Subcommittee on Technology and 
Innovation will hold a hearing to review the proposed re-alignment of 
operational units at the National Institute of Standards and Technology 
(NIST), examine the current role that NIST plays in technical 
standards, and examine the need for Federal agencies and departments' 
coordination on technical standards.

2. Witnesses

<bullet>  The Honorable Patrick Gallagher is the Director of the 
National Institute of Standards and Technology.

<bullet>  Dr. James Serum is the President of Scitek Ventures LLC, and 
the past Chairman of the NIST Visiting Committee on Advanced 
Technology.

<bullet>  Mr. Craig Shank is the General Manager for Interoperability 
at Microsoft.

<bullet>  Mr. Andy Updegrove is a partner at Gesmer Updegrove LLC.

<bullet>  Mr. Phil Wennblom is the Director of Standards at Intel 
Corporation.

3. Brief Overview

    The Omnibus Trade and Competitiveness Act of 1988 provided the 
basis by which the NIST technical program is currently organized into 
ten operational units. The NIST Director has proposed reorganizing the 
operational units and different offices within NIST to strengthen the 
ties of the organization to better reflect existing and future 
technologies and their multi-disciplinary nature.
    Standards play a critical role in enabling commerce, trade, 
innovation and competition. With the reduction in tariff-based bathers 
through negotiations in bodies such as the World Trade Organization, 
countries and regions are increasingly using standards as potential 
technical barriers to trade. Staff from various Federal agencies and 
departments participate in private sector led standards development 
activities. In 2007, more than 3,300 Federal staff from 26 Federal 
departments, agencies, and commissions participated in almost 300 
private sector standards developing organizations.

4. Background

    The importance of standards was recognized by the founding fathers, 
who in Article 1, Section 8 of the U.S. Constitution noted that ``The 
Congress shall have power to . . . coin money, regulate the value 
thereof, and of foreign coins, and fix the standards of weights and 
measures.'' NIST's traditional mission is to promote U.S. innovation 
and industrial competitiveness by advancing measurement science, 
standards, and technology in ways that enhance economic security and 
improve our quality of life. Thus, NIST is the only technical Federal 
agency with a constitutional mandate.
    The National Bureau of Standards (NBS), the predecessor to current-
day NIST, was established in 1901. The Omnibus Trade and 
Competitiveness Act of 1988 changed the National Bureau of Standards to 
the National Institute of Standards and Technology of today and 
established the basis for the current laboratory structure. While this 
laboratory structure has worked well for the past 20 years, 
globalization is presenting unique challenges to U.S. industry and 
manufacturing. The NIST laboratory re-alignment is an attempt to better 
position NIST to meet U.S. industry and government's needs in 
measurement science, standards and technology, and promote U.S. 
innovation and industrial competitiveness. The proposed reorganization 
will reduce the number of technical operating units from ten to six, 
and will create three new positions of associate directors, with 
responsibility for Laboratory Programs, Innovation and Industry, and 
Management Resources.
    NIST has a unique role in standards and conformity assessment 
activities. Together with developing and disseminating various physical 
and chemical standards, NIST staff develop tools that enable U.S. 
interests to keep their physical standards (e.g. time, length, mass, 
etc.) comparable to international standards through a chain of 
traceability. Every day examples of this include the time signals on 
cell phones, the precise operation of GPS units in cars, assurance of 
accuracy of the annual laboratory test for cholesterol, and the 
confidence in the quantity and quality of gasoline at gas stations. In 
2008, Over 400 NIST staff participated in over 1,000 technical 
(documentary) standards related activities in over 100 standards 
developing organizations. This technical standards development work 
covers numerous sectors, and ranges from standards defining the 
security of our financial transactions at ATMs to standards improving 
the fire resistance of building construction materials.
    Agencies' participation in technical standards development 
activities is consistent with their mission, statutory authority, and 
where applicable, with their regulatory authority. The varied nature of 
the standards system means that agencies participate in standards 
developing organizations in very different ways. In numerous private 
sector standards development activities, agencies participate 
independently, while in some standards developing fora such as the 
International Organization for Standardization (ISO), they participate 
through the American National Standards Institute (ANSI) as an 
organization. In treaty based organizations developing standards they 
participate through the State Department. Coordination and 
communication among Federal agencies and with the private sector is 
critical to ensure that technical standards issues that can impact U.S. 
innovation and competitiveness are identified early on and that the 
agencies with expertise are appropriately engaged.
    To better understand the current situation about the effectiveness 
of the public-private sector cooperation model in standards development 
and issues confronting U.S. industry, the Chairman of the House 
Committee on Science and Technology sent a letter to over 200 companies 
asking for feedback on four different aspects of the U.S. government's 
interaction in the standards system. The responses highlighted the 
success of the public-private partnership that is the basis for the 
U.S. standards system. A number of respondents also pointed to the 
issue of Federal agency coordination on standards related matters, and 
responded to questions about a potential NIST role in coordinating 
Federal agencies on standards related issues. This hearing explores 
those issues further.
    Coordination among Federal agencies and departments on technical 
standards issues is critical, as it directly impacts the ability of the 
U.S. government to respond to technical standards issues that 
potentially impact U.S. competitiveness and innovation ability. On 
issues such as the Chinese promulgation of a China unique standard for 
encryption of wireless communication (Wireless Local Area Network 
(WLAN) Authentication Privacy Infrastructure (WAPI)) and biofuels 
standardization issues with Brazil and Europe, questions were raised by 
the U.S. private sector about U.S. government positions on the 
underlying technical standards and coordination of different agencies 
and departments in developing such positions.

5. Hearing Issues:

    How will NIST operational units and offices be realigned and how 
will the proposed new NIST structure better position NIST to adequately 
support the needs of U.S. industry and government?

    What role should NIST play in technical standards within the 
Federal Government? What are the issues relating to Federal agencies 
and departments' coordination in international technical standards?

    The recently concluded Cyberspace Policy Review \1\ identified a 
coordinated approach between Federal agencies and recommended a 
strengthened and integrated interagency processes to formulate and 
coordinate international cybersecurity related positions.
---------------------------------------------------------------------------
    \1\ http://www.whitehouse.gov/assets/documents/
Cyberspace<INF>-</INF>Policy<INF>-</INF>Review<INF>-</INF>final.pdf

---------------------------------------------------------------------------
    Questions of particular interest are:

        <bullet>  Why is Federal agency coordination and information 
        sharing and exchange important on issues relating to 
        international technical standards?

        <bullet>  How well are current efforts by Federal agencies and 
        departments to coordinate and share information on technical 
        standards working?

        <bullet>  What are the potential barriers to improved Federal 
        agency coordination and information sharing on international 
        technical standards issues?

        <bullet>  What would be the impact of improved Federal agency 
        coordination and information sharing on international technical 
        standards issues?
    Mr. Gordon. [Presiding] This hearing will come to order. As 
I told our witnesses a little bit earlier, the scarcity of 
Members here is not a lack of interest in this very, very 
important issue, but there is a signing ceremony going on at 
the White House, and the Republican Conference has got various 
things going on, and so we are going in different places, but 
the important thing is that you are here, that we have had a 
period of time for minority and majority staff to talk with 
you. We have gotten your written information. We are glad to 
hear from you today.
    Today's hearing is about the role of NIST [National 
Institute of Standards and Technology] in supporting innovation 
in the 21st century. As the only Federal technical agency with 
a Constitutional mandate measurement and also the oldest 
Federal technical agency with a statutory charter, NIST has 
proven its worth to taxpayer investment for more than 100 
years, and as technologies have evolved, so has NIST, from 
developing the thread standards for the fire hoses to the 
measurement of electricity and now the digitalization of 
fingerprints, the list continues to grow.
    However, the current lab structure dates from 1988, and the 
technologies of today are much more multi-disciplinary and 
integrated in scope and function. Dr. Patrick Gallagher has 
announced his intention to restructure NIST to reflect the 
trends of the past 20 years, to accommodate the trends of the 
next 20. I agree that NIST structure needs to better reflect 
the needs of the private sector communities it serves, and we 
intend to make this a component of the America COMPETES 
legislation.
    NIST also has an important role beyond the measurement; 
from its creation, the word, ``standards'' has always been a 
key element of both its name and function.
    As technologies have changed since 1903, so have standards 
issues. Until the '80s, standards were considered to be a 
purely domestic issue. With the growth of international trade 
and technological corporations or international corporations in 
new technology sectors, this began to change. Our understanding 
of the importance of international impact of standards has 
accelerated over the past 20 years with the globalization of 
technological innovation. Today technical standards are a key 
part of the innovation puzzle.
    The focus of today's hearing is to ask what NIST's role 
should be in coordinating Federal Government standards policy 
development. I want to make it clear that this Committee has no 
interest in telling private sector standards developers how to 
do their jobs. This Committee has always been Congress's 
strongest proponent for the public-private sector partnership 
that defines the U.S. standards development system, and today's 
hearing is addressing issues that we hope will streamline 
Federal Government participation in the private-sector-led 
standard system.
    I would like to thank our witnesses for taking the time 
from their busy schedules to appear before the Committee today, 
and now I recognize Mr. Smith for his opening statement.
    [The prepared statement of Acting Chairman Gordon follows:]
           Prepared Statement of Acting Chairman Bart Gordon
    Today's hearing is about the role of NIST in supporting innovation 
in the 21St century. As the only Federal technical agency with a 
constitutional mandate--measurement--and also the oldest Federal 
technical agency with a statutory charter, NIST has proved its worth to 
taxpayer investment for more than one hundred years. And as 
technologies have evolved, so has NIST. From developing thread 
standards for fire hoses, to the measurement of electricity, and now to 
digitizing fingerprints, the list continues to grow.
    However, the current lab structure dates from 1988, and the 
technologies of today are much more multidisciplinary and integrated in 
scope and function. Dr. Patrick Gallagher has announced his intent to 
restructure NIST to reflect the trends of the past twenty years and to 
accommodate the trends to the next twenty. Subcommittee Chairman Wu and 
I are in complete agreement that the NIST structure needs to better 
reflect the needs of the private sector communities it serves and we 
intend to make this a component of the America COMPETES legislation.
    NIST also has an important role beyond measurement: from its 
creation, the word ``standards'' has always been a key element of both 
its name and function.
    As technologies have changed since 1903, so have standards issues. 
Until the eighties, standards were considered to be purely a domestic 
issue. With the growth of international trade and international 
corporations in new technology sectors, this began to change. Our 
understanding of the importance of international impact of standards 
has accelerated over the past twenty years with the globalization of 
technology innovation. Today technical standards are a key part of the 
innovation puzzle.
    The focus of today's hearing is to ask what NIST's role should be 
in coordinating Federal Government standards policy development. I want 
to make it clear that this committee has no interest in telling private 
sector standards developers how to do their jobs. This committee has 
always been Congress's strongest proponent of the public-private sector 
partnership that defines the U.S. standards development system. Today's 
hearing is addressing issues that we hope will streamline Federal 
Government's participation in the private-sector-led standards system.
    I would like to thank our witnesses for taking the time from their 
busy schedules to appear before the subcommittee today.

    Mr. Smith. Thank you, Mr. Chairman, Chairman Gordon. I 
thank you for calling this hearing today on the structure and 
authorities of NIST, the National Institute of Standards and 
Technology.
    Article 1, Section 8 of the Constitution enumerates the 
power of Congress to, ``fix the standard of weights and 
measures.'' For over 100 years since its initial founding as 
the National Bureau of Standards, NIST has been congressionally 
authorized to fulfill this mission and is trusted domestically 
and internationally as an unbiased arbiter of scientific 
measurement. As we are continually reminded, scientific 
innovation is never ending, and the infrastructure needed to 
ensure continued advancement evolves likewise.
    In light of this from time to time NIST has seen fit to 
reorganize itself to better meet the needs of the scientific 
and commercial communities. This evolution is entirely 
appropriate, so long as NIST remains within its authorization 
and is better able to meet its mission.
    I am looking forward to hearing from our witnesses on how 
this reauthorization fits those parameters. With that said, in 
the interest of hearing from our witnesses, I simply say thank 
you to the panel for going a ways out of your way to join us 
here today and share your expertise, and I yield back the 
balance of my time.
    [The prepared statement of Mr. Smith follows:]
           Prepared Statement of Representative Adrian Smith
    Thank you, Chairman Wu, for calling today's hearing on the 
structure and authorities of the National Institute of Standards and 
Technology.
    Article one, section eight of the United States Constitution 
enumerates the power of Congress to ``fix the Standard of Weights and 
Measures.'' For over one-hundred years, since its initial founding as 
the National Bureau of Standards, NIST has been congressionally 
authorized to fulfill this mission, and is trusted domestically and 
internationally as an unbiased arbiter of scientific measurement.
    As we are continually reminded, scientific innovation is never-
ending, and the infrastructure needed to ensure continued advancement 
evolves likewise. In light of this, from time to time, NIST has seen 
fit to reorganize itself to better meet the needs of the scientific and 
commercial communities.
    This evolution is entirely appropriate, so long as NIST remains 
within its authorization and is better able to meet its mission. I am 
looking forward to hearing from our witnesses on how this 
reauthorization fits those parameters.
    With that said, in the interest of hearing from our witnesses, I 
will simply say thank you to our distinguished panelists and yield back 
the balance of my time.

    Mr. Gordon. Thank you, Mr. Smith, and those Members that 
aren't here today will have an opportunity to submit opening 
statements for the record.
    It is now my pleasure to introduce our witnesses. First, 
the Honorable Patrick Gallagher is the Director of the National 
Institute of Standards and Technology. Dr. James Serum is the 
President of Scitek Ventures, LLC, and the Past Chair of the 
NIST Visiting Committee on Advanced Technology. Dr. Craig Shank 
is the General Manager of Interoperability at Microsoft. Dr. 
Philip Wennblom is the Director of Standards at Intel 
Corporation, and our final witness is Mr. Updegrove, who is a 
Partner of Gesmer Updegrove, and I am sure I have garbaged all 
your names and your businesses, but you are welcome to correct 
the record as we go forward. And as you know, you will have 
five minutes for your spoken testimony or anything within that 
reason. Your written testimony will be included in the record 
for the hearing, and when you complete your statements we will 
begin some questions here.
    So Dr. Gallagher, please begin.

    STATEMENT OF HON. PATRICK D. GALLAGHER, Ph.D. DIRECTOR, 
         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Gallagher. Thank you, Mr. Chairman, Ranking Member 
Smith, I would like to thank you for the opportunity to be here 
today. Since my written testimony has been submitted, what I 
would like to do this morning is to briefly and rather 
informally highlight some of the major points in that and I 
look forward to questions.
    There were two fundamental topics in today's hearing, and 
for me they both deal with how NIST can most effectively carry 
out its mission. So, first let me discuss the reorganization.
    The reorganization that I have proposed for NIST actually 
has two components to it. The first is the organization 
reporting directly to the Director's office, if you will. The 
current structure has 17 line organizations that all report to 
the Director or Deputy Director of the agency. I have proposed 
that this is an unyielding and unstable structure because of 
significant turnover in those positions, and the new structure 
proposes to organize NIST by eliminating the current Deputy 
Director position and replacing it with three Associate 
Directors, each with responsibility over major program elements 
of the agency. So, one for the laboratory programs, an 
Associate Director for our external programs, which includes 
Baldridge, MEP [Manufacturing Extension Partnership], and the 
Technology Innovation Program, and one for management 
resources, which covers the administrative and support 
functions of the agency.
    This proposed reorganization has been approved by the 
Department and by the Administration and is currently being 
evaluated by our Appropriations Subcommittees.
    The other reorganization that I have announced that I am 
considering, and I have also initiated internal planning for, 
is a realignment of the laboratory structure at NIST. As you 
pointed out, Mr. Chairman, this structure has been in place 
since the late 1980s, and I have been working in a very 
unorthodox fashion here. Normally our reorganizations are 
proposed and approved and not announced until they have gone 
through this process. I wanted to seek broad input, and so I 
have worked closely with the NIST Leadership Team, with the 
Visiting Committee on Advanced Technology, with key stakeholder 
organizations, with our own Department of Commerce, and with 
your staff from this Committee as well.
    After reviewing input from all of them, my initial 
assessment is that it is time to realign the laboratories, and 
what I have proposed is creating a structure that is based on 
organizations that are organized by mission. This would create 
vertically-integrated structure where a single laboratory would 
be responsible not only for the basic R&D activities but also 
for the measurement services that help carry out the mission of 
the agency. This would make organizations much more customer-
focused and responsive.
    A realignment of the type I am proposing will not change 
the focus of the NIST programs. This does not set aside a new 
direction. It is designed to make the agency more effective. 
Nor does it result in any reductions in force.
    I am working closely with all of our stakeholders to 
develop a proposal that would go to the Department and the 
Administration for approval, after which it would be sent, of 
course, and shared with Congress for consideration.
    On the standards issue, the National Technology Transfer 
and Advancement Act and its implementation under OMB [Office of 
Management and Budget] Circular A-119 defines NIST's role and 
tells Federal agencies that they are to, when possible, prefer 
to use standards developed by the private sector through a 
voluntary consensus process. This piece of legislation, which 
this Committee played a key role on, has been remarkably 
successful in having agencies replace government-written 
standards with those developed in the private sector.
    However, today the pace of technology is changing with 
greater speed, the technology itself is becoming more complex, 
and our solutions to major policy issues are dependent on 
technology itself. So there are two major questions that we are 
facing. One is how do we work more effectively with industry 
and the private sector on developing standards, and how do we 
work more effectively across agencies to coordinate our work.
    And so in my written testimony I have discussed some of our 
experience on Smart Grid. I think Smart Grid has broken new 
ground as a public-private partnership that can be very 
effective. It includes committed leadership by all the 
participants, it is an effective partnership model with an 
active governance, there is strong coordination among the 
participating Federal agencies, and it brings outstanding 
technical capability to bear.
    We are also working to improve the interagency 
coordination, and to that end I am working very closely with 
the Executive Office of the President, especially OSTP [Office 
of Science and Technology Policy] and OMB, to develop a more 
strategically-focused interagency process where we can address 
specific standards-related issues and policy topics.
    So, Mr. Chairman, I want to thank you again for this 
hearing, and I look forward to our question-and-answer session 
where I can address any other issues.
    [The prepared statement of Dr. Gallagher follows:]
               Prepared Statement of Patrick D. Gallagher

Introduction

    Chairman Wu, Ranking Member Smith, and members of the Subcommittee, 
I want to thank you for this opportunity to discuss NIST's pending 
reorganization, as well as our broader role in standards development. 
With the growing importance of NIST's mission to the economy--and with 
the Subcommittee's work to reauthorize the America COMPETES Act (P.L. 
110-69)--this is an opportune time to consider how to make the agency 
most effective.
    The first question I'd like to address today is: what do these two 
topics have in common with each other? I believe the answer is that 
they both fundamentally deal with how NIST can most effectively carry 
out its mission. As you know, NIST has many critical roles assigned to 
it. NIST's Laboratories ensure U.S. leadership in measurement science, 
documentary, and artifact standards. NIST supports other Federal 
agencies in meeting U.S. Government needs for voluntary consensus 
standards, and continually advances measurement science through 
cutting-edge research.
    Notwithstanding our continued success on these fronts, NIST finds 
itself at a critical time in its history. In the current economic 
environment, it is more important than ever that NIST be effective and 
efficient in supporting the industrial competiveness and economic 
prosperity of the United States. This is the main reason why I have 
proposed a reorganization of the Director's Office, and am considering 
a realignment of our laboratory programs. It is also why we are 
embarking on an initiative to strengthen and better coordinate Federal 
deployment of documentary standards.
    Because these two topics--realigning NIST and strengthening our 
standards coordination--are so important, I also have sought advice on 
them from our Visiting Committee on Advanced Technology (VCAT). Over 
this past year, the VCAT has been enormously helpful in providing input 
on both of these issues, and I am very pleased that they have joined me 
today in providing testimony to this Subcommittee.

Realignment of NIST Organizational Structure 

Motivation

    Why do I believe that the agency needs to be realigned? The answer 
is simple: The proposed reorganization of NIST's management is designed 
to allow me to effectively improve accountability by streamlining how 
the responsibility to carry out our mission is delegated through the 
organization.

Management Reorganization

    Mr. Chairman, as you know, I have been honored to be a NIST 
employee for over 16 years, and during my tenure the organizational 
structure of NIST has remained relatively unchanged. In fact, the 
current organizational structure of the agency originates from the late 
1980s, shortly after the enactment of Omnibus Trade and Competitiveness 
Act of 1988 (P.L. 100-418), when the National Bureau of Standards 
became NIST and Congress added several new programs to our mission. 
Since that time, NIST has been organized into a relatively flat 
organization with a Presidentially appointed Director, a career Deputy 
Director, and a collection of line organizations covering all of the 
various laboratory activities plus the Hollings Manufacturing Extension 
Partnership, the Baldrige National Quality Program, and the Technology 
Innovation Program (TIP was created in the America COMPETES Act (P.L. 
110-69) in 2007, and the Advanced Technology Program--its predecessor--
was repealed), plus all of the support organizations. At the time I 
became Director, there were 17 of these major line organizations, all 
reporting to the Director through the Deputy Director position.
    I believe this overall structure is unstable for two reasons. 
First, the Director's Office (comprised of Director and Deputy 
Director) is too small to effectively manage and integrate the diverse 
programs that carry out the mission of the agency. In other words, the 
agency didn't ``come together'' until it got up to the Director's 
office. This structure tends to drive the management of any activity 
that crosses line organizations up to the Director's office. This is an 
unwieldy approach. Second, NIST has experienced substantial turnover in 
both the Director and Deputy Director positions since the early 1990s. 
These frequent departures result in changes in management focus and 
direction for the many activities managed at this level. This has 
negatively impacted those activities requiring an agency-wide 
management approach, including strategic program planning, program 
evaluation, and an integrated safety management approach. These 
weaknesses have been areas of concern for both the VCAT and for this 
Subcommittee, and I believe that they must be addressed as an urgent 
priority.
    The proposed reorganization of the Director's Office will better 
distribute the operational responsibilities for NIST. I have proposed 
to eliminate the current Deputy Director position and establish three 
Associate Directors (AD): the AD for Laboratory Programs, which will 
have responsibility for the scientific and technical laboratories and 
services, as well as have the functions of a Deputy Director for 
purposes of succession; the AD for Innovation and Industrial Services, 
which will have responsibility for our external programs, including the 
Baldrige National Quality Program, the Hollings Manufacturing Extension 
Partnership, and the Technology Innovation Program; and the AD for 
Management Resources, which will have responsibility for NIST's 
administrative and operational support activities.
    Since the line organizations currently report to me through the 
Deputy Director position, this change does not add a new layer of 
management. It does, however, provide a core management team for the 
agency with executives directly responsible for the major program 
elements. I also believe that this structure will make NIST more stable 
when there are changes in any of these AD positions, or in the Director 
position. The proposed reorganization of the Director's Office has 
already been approved by the Department of Commerce and by the Office 
of Management and Budget (OMB), and is awaiting evaluation by the 
Appropriations Committees.

Laboratory Realignment

    On a separate track, NIST is working with its stakeholders, 
including the VCAT, on ways our laboratory programs might be realigned 
by mission to improve service delivery. The NIST Laboratory Program is 
currently organized into ten laboratory or center line organizations 
(these are the same line positions that would report to the Associate 
Director for Laboratory Programs). There are two user facilities (the 
NIST Center for Neutron Research, and the Center for Nanoscale Science 
and Technology) and eight laboratories, seven of which are organized by 
discipline area (Physics, Chemical Sciences and Technology, Electronics 
and Electrical Engineering, Materials Science and Engineering, 
Manufacturing Engineering, Building and Fire Research, and Information 
Technology) and one for measurement services (Technology Services).
    Increasingly, the technological and scientific challenges tackled 
by NIST are multidisciplinary. Examples of our multidisciplinary work 
include initiatives on Smart Grid, advanced photovoltaics, climate 
change, and bioscience and health. Currently all major 
multidisciplinary NIST programs involve more than one laboratory, and 
several programs involve as many as seven. Coordination of these major 
programmatic responsibilities increases the ``friction in the system,'' 
making it more difficult to address these challenges efficiently and 
effectively.
    In addition, by organizing by disciplinary area of research, the 
current structure emphasizes the role of these organizations in 
managing their research portfolios, not the dissemination of this 
research into our mission-based activities. Currently a laboratory that 
conducts research leading to a new or improved measurement capability 
or service is often not directly responsible for delivering the 
resulting product or service to government or industry, which divides a 
single mission across operational boundaries. This diminishes the 
responsibility of the laboratory management over these services. This 
is a major concern for me because it can make us less customer focused, 
since many of our industry stakeholders interact with NIST through 
these measurement, standards, and technology activities.
    Therefore, in November I asked my senior leadership to undertake an 
assessment of the NIST organizational structure with a goal of 
answering three important questions:

        1.  Is NIST's current organizational structure aligned to best 
        accomplish the important missions that the Congress and the 
        Administration continue to entrust to us and which distinguish 
        NIST from other scientific research laboratories?

        2.  Can we improve the integration of operational 
        responsibilities into NIST's laboratory programs, with clear 
        roles and responsibilities defined?

        3.  Can we improve the efficiency and effectiveness of the 
        Institute?

    As part of their assessment, the NIST leadership considered 
multiple approaches and principles under which a national scientific 
laboratory program might best be aligned. In February they provided me 
with an analysis of these options, outlining the pros and cons of each 
alternative. At the same time, I asked the NIST Visiting Committee on 
Advanced Technology for input on these proposed changes. This was the 
major focus of the February VCAT meeting. Additionally, I held a Town 
Hall meeting with NIST staff in December and announced my intention to 
review the agency's structure and seek input from NIST employees on the 
organization. I have received, and continue to receive, very thoughtful 
input from the NIST staff on the potential realignment, with their 
suggestions of what would be most effective for the agency. I am 
continuing to work closely with senior Department officials, other 
organizations and key stakeholders on this process.
    After carefully reviewing this input, my initial assessment is that 
alignment by mission would be the most effective way to structure the 
laboratories. The benefits of such realignment should outweigh any 
disruption that it would inevitably entail. A mission-based alignment 
would enhance our ability to accomplish NIST's missions, improve the 
integration of operational responsibilities into the laboratory 
programs, and enhance our efficiency and effectiveness both now and in 
the future. Aligning the Institute along mission lines would create a 
vertically integrated structure in which a single laboratory will be 
responsible for everything from delivery of products and measurement 
services to customers all the way to the basic and applied research and 
development upon which these services depend.
    In a mission-based organization the realigned measurement 
laboratories would be responsible not only for fundamental measurements 
and advancing the state-of-the-art for measurement science, but also 
for the dissemination of measurements into industry. This means that 
they include measurement services and programs, such as calibrations, 
Standard Reference Materials and data, legal metrology, metric program, 
etc. The technology laboratories would assume responsibility for our 
sector-specific programs in technology and technology infrastructure, 
including NIST mission activities in: cybersecurity, health IT, voting 
technology, building and fire research, and manufacturing process and 
automation technology, as well as specific responsibilities given NIST 
by legislation such as the Federal Information Security Act of 2002 
(P.L. 107-347), the Help America Vote Act of 2002 (P.L. 107-252), the 
National Construction Safety Team Act of 2002 (P.L. 107-231), and the 
National Earthquake Hazard Reduction Program (P.L. 108-360).

Impact and Status

    A realignment of this type would not change the focus of NIST 
programs. Rather, it would make NIST more effective in delivering its 
products and services to its customers. Critical functions performed by 
the current laboratories would continue under a mission-based 
structure. For example, the President's FY 2011 budget request for NIST 
includes about $70 million in increased funding for manufacturing 
related research and support services. In a mission-based alignment 
manufacturing would be a central mission focus of all our laboratories.
    NIST is also in the fortunate position of being able to realign at 
a time of growth for the agency. This means we are able to avoid any 
adverse impacts on existing staff--in particular, there would be no 
Reductions in Force (RIFs).
    Where are we now? Compared to the Director's Office reorganization, 
a change in laboratory structure is more complex and requires careful 
planning. NIST is now working with all its stakeholders to develop a 
proposal for Departmental and Administration review. I hope to continue 
working closely with this Subcommittee to ensure that any changes to 
NIST result in a more effective agency that can meet its mission 
responsibilities. In terms of process, we are following procedure which 
would be to provide a proposal to the Congress after the Department and 
the Administration have received and approved it.

NIST's Historical Role in Standards

    Mr. Chairman, I would like to turn to the larger picture.
    NIST scientists and engineers have played an important government 
role in standards development and use for most of its 109 year history. 
NIST staff support the development of documentary standards through 
their technical participation in standards development organizations--
ensuring standards that are based on sound science and supported by 
effective measurements and testing that promotes conformity to and 
acceptance of the standards. Last year over 400 technical experts from 
NIST participated in almost 1100 standards related activities, in more 
than 100 standards development organizations. NIST brings to the table 
a breadth and depth of technical expertise, a reputation as an unbiased 
and neutral party, and a long history of working collaboratively with 
the private sector. NIST values that collaborative relationship and 
looks to its continued success. This is one of our primary roles under 
the National Technology Transfer and Advancement Act or NTTAA (P.L. 
104-113).
    The NTTAA, and its implementation under OMB Circular A-119, guide 
Federal agencies on the use of standards and conformity assessment 
practices. This seminal piece of legislation aimed to reduce the 
development of government-centric standards and promote the adoption 
and use of consensus based private sector standards to meet government 
needs, and was principally focused on the use of standards by Federal 
agencies in procurement and regulation. The Act also charged NIST with 
the role of coordinating Federal, state and local technical standards 
and conformity assessment activities and coordinating these activities 
with the private sector.
    In terms of reducing the use of government specific standards in 
procurement, the NTTAA has been remarkably successful. Since 1997, over 
3000 government-specific standards have been replaced with private 
sector standards. In addition, NIST has identified over 9,000 citations 
of standards incorporated by reference in regulatory documents and a 
similar number used in procurement actions. These citations are 
available in an interactive database which illustrates the extensive 
use of private sector standards by the U.S. Government.

New Models for Engagement

    Nevertheless, today there is increased urgency in discussions about 
how we can strengthen the coordination and engagement of Federal 
agencies on the use of private sector standards as called for by the 
NTTAA.
    Why is this the case? I believe it is because the technical 
standards needed today cover more complex technologies and are playing 
an increasingly important role beyond procurement by individual 
agencies. Whether as a basis for Federal regulations, or as a 
requirement for recipients of Federal assistance, agencies increasingly 
want to look towards effective private sector standards to meet policy 
goals. In addition, the needed standards often deal with complex 
system-level performance, such as interoperability or security, rather 
than component level performance or specification. This can greatly 
increase the complexity of the needed standards. For example, our Smart 
Grid efforts have focused on the development of a model framework of 
private sector standards to support a secure and interoperable 
electrical infrastructure, one of the most complex systems in use 
today. Larger efforts like the Smart Grid often involve multiple 
Federal agencies and can involve hundreds of different private sector 
standards.
    These changes are driving two urgent goals:

        (1)  How do we work more effectively with industry and private 
        sector standards developers on the development of timely and 
        effective standards, and;

        (2)  How do we work more effectively across agencies to make 
        sure that Federal efforts to work with the private sector are 
        effectively planned and coordinated?

    I'd like to follow up and discuss how we are working on these two 
issues.
    NIST' s Smart Grid related work could be looked at as a model for 
future standards development activities in areas of significant 
government interest and national need. The Smart Grid effort was 
characterized by a stronger Federal leadership role in convening the 
appropriate government stakeholders, and private-sector players to 
coordinate their activities, define objectives and reference 
architectures, and establish priorities for work towards mutually 
acceptable goals on an accelerated timescale.
    The Smart Grid program has broken new ground, marshalling a massive 
public/private sector effort to create standards for the transformation 
of one of the largest and most complex infrastructures ever built--the 
electric grid. In less than a year's time, building upon the 
foundational work of the Department of Energy and its National Lab 
partners, this effort has created a ``Release 1.0'' standards framework 
for the Smart Grid that is providing a roadmap to align the efforts of 
over 3100 electric utilities and thousands of suppliers. Our experience 
in leading the development of interoperability standards for the Smart 
Grid over the last year has demonstrated a number of principles and 
best practices that can be applied in leading the development of 
standards for other major national initiatives where the government has 
a well defined interest. Key elements for success include:

        <bullet>  Committed leadership from the top. Standards 
        activities are usually driven bottom up--rarely from the top 
        down. In the case of a national infrastructure, top down 
        leadership is essential. The President led this effort with a 
        meeting at the White House, chaired by two Cabinet Secretaries 
        and involving nearly 70 industry CEOs and senior executives. 
        This high-level engagement and leadership is continuing, and is 
        essential to keep the efforts of the hundreds of companies and 
        organizations involved aligned and the momentum going.

        <bullet>  A broad partnership that involves all the critical 
        players--For example the Smart Grid Interoperability Panel, now 
        numbers more than 550 companies and organizations and 1700 
        individual participants, which represents a novel 
        organizational model for public/private collaboration on 
        standards.

        <bullet>  Strong coordination among Federal agencies--well 
        defined roles and responsibilities has been critical to the 
        success of the ongoing Smart Grid efforts. Strengthening NIST's 
        role as a convener and coordinator of Federal standards 
        activities will be critical for future success.

        <bullet>  Strong technical capability.

    NIST, with its broad technical capabilities and infrastructure for 
conformity assessment, close ties to the standards development 
community and industry, and reputation as a neutral and honest third 
party positioned it well to catalyze and improve the efficiency of the 
U.S. government's engagement on Smart Grid. I believe that this is a 
model approach for other similar standards efforts. The government has 
a wide spectrum of standards needs, so it should have a wide variety of 
approaches to working with the private sector. Traditionally, this has 
meant either limited government involvement in private sector led 
efforts, or government written standards. I think the approach taken 
with Smart Grid offers a middle approach of strategic and focused 
engagement of the private sector community to put in place an effective 
standards framework to address public need.

Improved Interagency Coordination

    More effective Federal engagement in standards development, use, 
and standards promotion will require more effective interagency 
coordination as well. This is a role specifically called out for NIST 
under the NTTAA. Interagency coordination on standards related issues 
is also a primary function of the Executive Office of the President, 
especially the Office of Science and Technology Policy (OSTP), the 
Office of Management and Budget (OMB) and The United States Trade 
Representative (USTR.) OMB Circular A-119 specifically addresses 
interagency coordination on the development and use of standards by 
Federal agencies, and OMB and NIST have a long track record of working 
closely on this topic. A more strategically focused interagency process 
to tackle specific standards related issues or to address emerging 
standards related policy topics would require a more robust interagency 
coordination process. I am currently working closely with OSTP and OMB 
to explore specific mechanisms that would allow the coordination to be 
strengthened in specific ways: to provide leadership level coordination 
and decision making regarding policy or agency or Department 
participation; to provide a working-level coordination process that is 
tasked by the leadership group on specific topics and which can monitor 
and report on standards related activities, including implementation of 
the NTTAA; and a collection of issue-specific working groups to develop 
and implement plans for engaging on specific standards needs, or for 
developing possible policy positions for consideration by the 
leadership group. I am very aware of the strong interest in standards 
related topics by this Subcommittee and the full Committee. I would 
like to continue to work closely with you on this topic so that we can 
ensure that government-needed standards are in place when needed, and 
are effective in carrying out their intended purpose.
    Chairman Wu, Ranking member Smith and members of the Subcommittee, 
I have approached the reorganization of NIST with extreme care, and I 
believe there is a unique opportunity to strengthen and improve NIST. I 
also believe that our efforts in standards related to Smart Grid and 
Health IT can serve as a model for future standards challenges to 
address critical national needs. I look forward to working with you 
closely and I am happy to answer any questions that you might have.

                   Biography for Patrick D. Gallagher
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Dr. Patrick Gallagher was confirmed as the 14th Director of the 
U.S. Department of Commerce's National Institute of Standards and 
Technology (NIST) on Nov. 5, 2009. Gallagher provides high-level 
oversight and direction for NIST. The agency promotes U.S. innovation 
and industrial competitiveness by advancing measurement science, 
standards, and technology. NIST's FY 2009 resources total $1.6 billion 
and the agency employs about 2,900 scientists, engineers, technicians, 
support staff and administrative personnel at two main locations in 
Gaithersburg, Md., and Boulder, Colo. in addition to $819 million in FY 
09 appropriations and $125 million from other agencies, the American 
Recovery and Reinvestment Act of 2009 provides a total of $610 million 
to NIST for building critically needed research facilities, expanding 
fellowships and research--grants, and addressing important national 
priorities critical to the nation's future.
    Gallagher had served as Deputy Director since 2008. Prior to that, 
he served for four years as Director of the NIST Center for Neutron 
Research (NCNR), a national user facility for neutron scattering on the 
NIST Gaithersburg campus. The NCNR provides a broad range of neutron 
diffraction and spectroscopy capability with thermal and cold neutron 
beams and is presently the nation's most used facility of this type. 
Gallagher received his Ph.D. in Physics at the University of Pittsburgh 
in 1991. His research interests include neutron and X-ray 
instrumentation and studies of soft condensed matter systems such as 
liquids, polymers and gels. in 2000, Gallagher was a NIST agency 
representative at the National Science and Technology Council (NSTC). 
He has been active in the area of U.S. policy for scientific user 
facilities and was chair of the Interagency Working Group on neutron 
and light source facilities under the Office of Science and Technology 
Policy.

    Mr. Gordon. Dr. Serum is recognized.

STATEMENT OF DR. JAMES SERUM, PRESIDENT, SCITEK VENTURES, LLC, 
 AND PAST CHAIR, NIST VISITING COMMITTEE ON ADVANCED TECHNOLOGY

    Dr. Serum. Thank you, Chairman Gordon and Ranking Member 
Smith, for the opportunity to testify today on matters related 
to the organizational realignment and the future role of NIST 
in coordinating Federal agencies in standards. My name is James 
Serum, and I am President of Scitek Ventures, a science and 
technology consulting firm. I have been engaged in developing 
and commercializing measurement technologies for about 40 
years, having spent most of my career with Hewlett Packard.
    I have associated with NIST for about 12 years, having 
first served as a member of the NRC [National Research Council] 
Assessment Panel and in 2004, I was appointed to NIST's 
Visiting Committee on Advanced Technology [VCAT], and for the 
last two years have served as its chairman.
    In most cases the comments expressed in this testimony are 
my own, but in some cases, especially related to NIST's role in 
standards, I also reflect the opinions of the VCAT as 
represented in the recently-submitted annual report.
    I will begin by addressing the topic of the proposed NIST 
organizational realignment. The first question that must be 
asked is why do a realignment. NIST is a broad-based, diverse 
organization involving fundamental research technology, 
standards development, and managing programs for research 
funding and quality management. These activities have evolved 
over the years, but the underlying NIST organizational 
structure that supports them has not seen major change in, as 
you have said, about 20 years.
    Much of the organization is discipline-focused, for 
example, in physics and in chemistry, yet many of the current 
goals and priorities are application or mission-focused. An 
effective, efficient organization must have clearly-defined 
responsibilities, single ownership of goals, and accountability 
for achieving results. Key priority programs must have 
visibility in all levels of the organization. The head of the 
organization needs to clearly understand the business 
priorities, desired outcomes, and capabilities both in people 
and other assets and then optimize the organizational structure 
to best meet its goals. I believe that Dr. Gallagher well 
understands these criteria, and his proposed realignment 
reflects this understanding.
    Dr. Gallagher has proposed a reorganization that I believe 
will result in a more effective operation and accountability 
for all departments. Laboratories will report to one Associate 
Director, and within the laboratories a mission-based structure 
will bring all elements of the mission together, including 
technology development, standards, calibration services, and 
reference data. High-priority industry-focused programs and 
cross-cutting programs would gain top-level visibility and 
coordination through a program office under the Associate 
Director for Laboratory. I am fully supportive of Dr. 
Gallagher's proposed restructuring.
    I was also asked to address the question of my support for 
the Director of NIST to also hold the rank of Under Secretary, 
similar to the structure at NOAA [National Oceanic and 
Atmospheric Administration]. In general I think this is a very 
positive change both for the NIST organization and for the 
Director in that it brings parity with his peers in the 
Commerce Department and allows the Director to participate in 
all the activities afforded to an Under Secretary.
    I would only be concerned if the Director receives 
significant additional responsibilities with a new title that 
diverted his attention from the very important challenges that 
NIST faces in the coming years.
    Finally, I would like to express a high degree of 
confidence in the NIST Director and his ability to structure 
the organization to meet its goals and objectives. Dr. 
Gallagher has a deep understanding of emerging technologies, 
the organization's strengths and weaknesses, and a clear plan 
to meet the challenges that NIST faces in the coming years. 
VCAT also has affirmed their confidence in support of Dr. 
Gallagher in their annual report.
    In consideration of the role of NIST in coordinating 
Federal agency activities, it seems natural that they would 
play a major role. The development and maintenance of standards 
is not only a core competency at NIST, it is a major element of 
their mission statement. Together with their competency in 
measurement technology, NIST drives and coordinates standard 
practices and processes throughout much of the U.S. industries.
    For example, documentary standards are recognized as a 
critical element in the successful implementation of the Energy 
Smart Grid, Healthcare Information Technology, and the 
Cybersecurity Programs. NIST is already deeply engaged in 
coordinating standards activities in these industrial segments, 
and the VCAT has described these activities and its 
recommendations in its 2009 annual report.
    The VCAT believes that the coordination role taken on by 
NIST in the area of Smart Grid should be used as a model and 
applied to other areas of national priority where standards 
development is required. It is clear from my examples in my 
written testimony that NIST technical expertise, its reputation 
as an unbiased and neutral party, and its extensive 
participation in standards and conformity assessment activities 
strongly positions NIST to address the standards-related 
challenges of the 21st century in helping the U.S. maintain a 
competitive advantage.
    Thank you.
    [The prepared statement of Dr. Serum follows:]
                  Prepared Statement of James W. Serum
    Thank you Chairman Wu and members of the House Subcommittee on 
Technology and Innovation for the opportunity to testify before you 
today on matters related to the NIST Organizational Realignment and a 
future role for NIST in coordinating Federal agencies in international 
technical standards.
    My name is James W. Serum and I am the President of Scitek 
Ventures, a science and technology consulting firm focused on helping 
young companies commercialize innovative ideas and early stage 
technology. I have been engaged in developing and commercializing 
measurement technologies and applications for over 40 years, having 
spent most of my career with Hewlett Packard Company. Upon retirement 
in 1999, I founded an information technology business, Viaken Systems 
Inc. and a technology consulting firm, Scitek Ventures LLC, both 
focused on measurement systems. I have been associated with NIST for 
the past 12 years, having served first as a member of the National 
Research Council Assessment Panel for the Chemical Science and 
Technology Laboratory (CSTL) and in 2004 I was appointed to NIST's 
Visiting Committee on Advanced Technology (VCAT). In 2008 I was elected 
to chair that organization.
    The two subjects being addressed today are very diverse so I will 
treat them as independent topics.
    In most cases, the comments expressed in this testimony are my own 
but in some cases, especially related to NIST's role in standards; I 
also reflect the opinions of the VCAT as represented in the recently 
submitted Annual Report.

NIST ORGANIZATIONAL REALIGNMENT

    I will begin by addressing the topic of the proposed NIST 
Organizational Realignment. The first question which must be asked is 
``Why do a realignment?'' NIST is a broad-based, diverse organization 
with activities that include; the development of pioneering 
technologies executed both within their own laboratories and with 
external collaborators; the creation of national and international 
standards, and the management of external research funding and quality 
recognition programs. These activities have evolved over the years but 
the underlying NIST organizational structure that supports them has not 
seen major change for about twenty years. Much of the organization is 
discipline focused, (for example, Physics, Chemistry, etc.) yet many of 
the current goals and priorities are application or mission focused.
    Based on my long experience in industry, I would say that there is 
no single organizational structure that can ideally meet all of the 
diverse NIST goals and priorities. In general, the head of an 
organization needs to clearly understand his/her business priorities, 
desired outcomes, and capabilities both in people and other assets and 
then optimize the organizational structure to best meet its goals. I 
believe that Dr. Gallagher well understands these criteria and his 
proposed realignment reflects this understanding. Any organization must 
have clearly defined responsibilities, single ownership of goals and 
tasks, and accountability for achieving results. Key priority programs 
must have visibility in all levels of the organization. Every 
department must understand its priorities, goals, deliverables and 
measures of success. These are the factors upon which I judge the 
effectiveness of a NIST organizational realignment with regard to being 
able to accomplish its goals and objectives. It is common for an 
organization that has highly diverse goals to implement a ``matrix'' 
structure. Although this type of structure typically provides more 
visibility for each program, it often suffers from confusing ownership 
of tasks and insufficient accountability.
    In an effort to respond to the various chartered NIST activities, 
Dr. Gallagher has initially proposed a top level reorganization of 
NIST's management structure. This reorganization would replace the 
current structure which has each Operating Unit reporting directly to 
the NIST Director, with a streamlined executive management team 
consisting of three Associate Directorships. This new management 
structure will streamline the management and planning within the agency 
and put in place the decision making structure necessary for more 
effective operations and accountability for all aspects of the 
individual departments. It means that all laboratories will report into 
one Associate Director and within the laboratories, Dr. Gallagher is 
proposing a structure that brings all elements of a mission together 
including technology development, standards, calibration services, and 
reference data. He has proposed a structure that includes four 
laboratories including Physical Measurements, Materials Measurement, 
Engineering, and Information Technology, as well as two Centers for 
Nanoscale Science and Technology and Neutron Research. I am fully 
supportive of this initial top level management restructuring.
    I believe that bringing together both technology development and 
standards programs into a single laboratory will significantly improve 
organizational effectiveness. It is also important to consider how high 
priority, industry focused programs such as Smart Grid would be managed 
in the proposed realignment. It is imperative that these critical 
programs receive sufficient management visibility throughout the 
organization and that trade-off decisions are made at a level where the 
entire organizational resources and expertise is taken into account. 
Under the proposed realignment, the healthcare activities would be 
structured as programs, for example, for quantitative diagnostic 
imaging in the Physical Measurement lab, the biologics and lab testing 
program in the Materials Measurement Lab, and Health IT in the 
Information Technology Lab. Dr. Gallagher also proposes a program 
office with the Associate Director for Laboratory Programs that will 
provide for high level management visibility and coordination for 
crosscutting research programs (e.g. Quantum-based measurements) or for 
the development of new application areas that have program activities 
in multiple programs.
    The ability for an organization to respond to cross-cutting 
technologies, technologies with rapid development cycles, and 
technologies which have been developed in non-traditional countries, 
depends mostly on assigning clear ownership, accountability and 
measures of success. It needs visibility at the highest level and a 
nimble decision making process. I have already described how cross-
cutting programs would logically fit into the new organization and I 
believe that the NIST has often demonstrated its nimbleness in 
responding to urgent needs such as the World Trade Center disaster and 
assisting the Election Assistance Commission with the development of 
voluntary voting system guidelines under the Help America Vote Act of 
2002 (HAVA).
    There appears to be a good understanding within NIST for balancing 
the needs of program management with internal people development and 
external constituencies. As such, the realignment evaluation process is 
being designed to take into account the views of various stakeholders 
inside and outside of NIST including, of course the researchers in the 
laboratories. Although the VCAT did not formally review a specific 
proposal for organizational realignment, we strongly supported the 
process that the Director has used to develop his proposal including 
getting involvement and input from a broad spectrum of the 
organization.
    I was asked to address the question of my support for a NIST 
structure that would make the Director of NIST both a Director and an 
Undersecretary with responsibility for standards and technology, 
similar to the structure at NOAA, where the NOAA Administrator is also 
an Undersecretary. In general, I think that this is a very positive 
change both for the NIST organization and for the Director in that it 
brings parity with his peers in the Commerce Department and allows the 
Director to participate in all of the activities afforded to an 
Undersecretary. I would only be concerned if the Director received 
additional responsibilities with the new title that significantly 
diverted his attention from the very important challenges that NIST 
faces in the coming years.
    Finally, I would like to express a high degree of confidence in the 
NIST Director and his ability to structure the organization to meet its 
goals and objectives. Dr. Gallagher has a deep understanding of the 
emerging technologies, the organization's strengths and weaknesses, and 
a clear plan to meet the challenges that NIST faces in the coming 
years. The VCAT has also affirmed their confidence and support of Dr. 
Gallagher in their Annual Report.

FUTURE ROLE FOR NIST IN COORDINATING FEDERAL AGENCIES IN INTERNATIONAL 
                    STANDARDS:

    In consideration of The Future Role for NIST in Coordinating 
Federal Agencies in International Standards, it seems natural that they 
would play a major role. The development and maintenance of Standards 
is not only a core competency at NIST, it is a major element of their 
Mission Statement. Together with their competency in measurement 
technologies, NIST drives and coordinates standards practices and 
processes throughout most of our U.S. Industries. I can think of few 
industrial segments or emerging technology areas that do not require 
standardization processes or standardized materials of some type to 
achieve success. For example, ``documentary standards'' are recognized 
as a critical element in the successful implementation of the Energy 
Smart Grid, development of Healthcare Information Technology and 
Cybersecurity advanced technologies. The NIST team is already deeply 
engaged in coordinating standards activities in these industrial 
segments. During the past year, the VCAT focused much of its attention 
to examining NIST's activities in the coordinated development of 
documentary standards for these critical national priorities. The VCAT 
has described these activities and its recommendations in its 2009 
Annual Report and I will simply highlight a few relevant points in this 
testimony.
    A couple of examples of the unique role in which NIST is already 
engaged related to coordinating documentary standards activities within 
the Federal Government include, The National Technology Transfer and 
Advancement Act (NTTAA) which charges NIST with the role of 
coordinating ``Federal, State, and Local technical standards activities 
and conformity assessment activities, with private sector technical 
standards activities, and conformity assessment activities, with the 
goal of eliminating unnecessary duplication and complexity in the 
development and promulgation of conformity assessment requirements and 
measures:''
    Furthermore, in support of this act, the Office of Management and' 
Budget (OMB) Circular A-119 on ``Federal Participation in the 
Development and Use of Voluntary Consensus Standards and in Conformity 
Assessment Activities'' assigns NIST the responsibility of chairing the 
Interagency Committee on Standards Policy (ICSP), an inter-agency group 
of Standards Executives from Federal Agencies and Commissions. Thus, 
both statute and supporting policy, charge NIST with significant 
responsibility for coordination of standard's interests among Federal 
agencies and the private sector. In FY 2009, under the Energy 
Independence and Security Act of 2007, NIST was assigned ``primary 
responsibility to coordinate development of a framework that includes 
protocols and model standards for information management to achieve 
interoperability of smart grid devices and systems.''
    NIST is also playing a significant role in supporting the 
Department of Health and Human Services (HHS) in development and 
deployment of standards and conformance systems in Healthcare IT, a 
major administration priority. The Federal Information Systems 
Management Act (FISMA) charges NIST with the responsibility for 
developing standards and guidelines for all Federal, non-national 
security, information systems. Other examples of NIST leadership and 
coordination of Federal Government agencies in standards and conformity 
assessment includes assisting the Election Assistance Commission with 
the development of voluntary voting system guidelines under the Help 
America Vote Act of 2002 (HAVA). Based on NIST's investigations of the 
collapse of the World Trade Center structures on Sept. 11, 2001, NIST 
has proposed various changes to model building codes, some of which 
have been adopted in recent revisions to the building codes, and other 
are still being discussed.
    It is clear from these examples, among numerous others, that NIST's 
technical expertise, its reputation as an unbiased and neutral party, 
and its extensive participation in standards and conformity assessment 
activities, strongly positions NIST to address the standards related 
challenges of the 21st century, and helping the U.S. maintain a 
competitive edge.
    The VCAT has recommended that NIST seek executive branch authority 
to serve as the principal inter-agency convener for documentary 
standards affecting national, international and/or inter-agency 
interests of the U.S. Government. The VCAT strongly urges that the 
Department of Commerce sanction and endorse such a role for NIST. It is 
noted that as convener, NIST may not always carry out all tasks 
associated with the development of documentary standards but would 
serve to coordinate the development of actions plans and assure that 
overall architectural integrity of the standard is preserved. NIST 
would coordinate the application of expertise across relevant agencies 
in pursuit of the highest quality and timeliness of the documentary 
standard in question.
    To cite one example in greater detail, Ill reference the NIST role 
in Smart Grid Interoperability Standards. Smart Grid interoperability 
is a major priority for the administration, and one where standards 
development is critical. It illustrates the important leadership and 
active coordination role that NIST can play in standards development. 
The development and deployment of a Smart Grid presents a major 
interoperability challenge as the Nation must work within an electrical 
grid that consists of more than 3100 power utilities using 9200 power 
generation plants that are connected to more than 300,000 miles of 
transmission lines supplying electricity to residential and business 
consumers all over the country to say nothing of the millions of 
business, industry and residential devices that have to interwork with 
each other and power generation and distribution systems. The 
introduction of distributed renewable energy sources such as solar 
panels, wind turbines, and fuel cells bring additional challenges in 
integrating these systems seamlessly into the grid, through the use of 
smart meters. It is also important to comprehend the impact of plug-in 
vehicles on the grid. Clearly defined interoperability requirements, 
and standards to support such implementations will be critical not only 
in the creation of a Smart Grid, but also in engendering innovation and 
competition amongst the suppliers, supplying components to the systems 
thereby reducing costs of implementation, and providing a greater 
choice to consumers.
    NIST has taken a number of steps to fulfill its role as defined 
under the Energy Independence and Security Act (EISA) of 2007, which 
gives NIST the ``primary responsibility to coordinate development of a 
framework that includes protocols and model standards for information 
management to achieve interoperability of Smart Grid devices and 
systems . . .''  KIST has made significant progress according to the 
three-phase plan outlined by Dr. Gallagher and the Smart Grid team at 
NIST and I'll refer you to the VCAT Annual Report for greater detail on 
the progress that they have made.
    From my perspective, this is also an outstanding example of a 
public/private sector working together for a successful standards 
foundation upon which to implement the Smart Grid. The SGIP (Smart Grid 
Interoperability Panel) is composed of over 550 member organizations, 
most of whom are private companies. The governing Board is chaired by 
an executive from General Electric and all stakeholder elements are 
represented.
    The NIST staff also undertook to assure the creation of a reference 
model of the Smart Grid system that will serve as the basis for 
standards architecture development and articulation. The importance of 
this initiative would be hard to overestimate. The absence of a 
comprehensive reference model would disable the development of a 
coherent architecture for the Smart Grid system. The reference model 
itself emerges out of the broad spectrum of use cases contributed by 
the participants in the Smart Grid Interoperability Pane!.
    The successful efforts thus far reflect well on NIST and the EEEL 
Laboratory through which the Smart Grid Interoperability Panel activity 
is managed. The importance of this work is underscored by the planned 
use of the SGIP technical guidelines in the Smart Grid funds-granting 
plans of the Department of Energy.
    The VCAT observes that the broad spectrum of smart appliances 
expected to enter the consumer market in consequence of the Smart Grid 
program will inevitably highlight consumer demand for easy to install 
and use equipment taking advantage of ``plug and play'' features that 
can only arise in the presence of a strong interoperability standards 
framework. This same avalanche of new consumer equipment will also 
awaken interest in and concern for consumer safety, leading to the need 
for the Consumer Product Protection Agency to engage in standards 
development and conformance testing capabilities.
    The VCAT believes that the coordination role taken on by NIST in 
the area of Smart Grid should be used as a model and applied to other 
areas of National priority where standards development is required. The 
VCAT would like to emphasize that NIST's Smart Grid Program encompasses 
more than coordinating the interoperability standards framework for 
Smart Grid devices and systems. The capabilities of the NIST 
laboratories in measurement science, modeling, and conformance 
assessment provide unique resources that contribute to Smart Grid 
standards development. The technical outputs of the NIST laboratories 
can help accelerate the implementation and improve the effectiveness 
and security of the Smart Grid especially in the key areas of power 
system monitoring, power meters and sensors, electromagnetic 
interference, conformity assessment programs, and cybersecurity. 
Continued increased support for NIST's research programs in measurement 
characterization of electrical systems, data networking, cybersecurity, 
building energy management, and industrial control systems will be 
critical for future success. The VCAT strongly urges Congress and the 
Administration to support increased funding for these activities.
    Given the core competencies at NIST for standards and advanced 
measurement technology, their industrial credibility and proven track 
record for coordinating standards both within the Federal Government 
and with the private sector, I strongly support the consideration for 
broadening NIST's responsibility for Federal agency standard's 
coordination.

                      Biography for James W. Serum
    Dr. Serum received a B.A. in Chemistry from Hope College and was 
awarded a Ph.D. degree in Organic Chemistry in 1969 from the University 
of Colorado. His doctorate research was directed toward studies in Mass 
Spectrometry. Following his graduate studies, he taught and did 
research at the University of Ghent, Belgium. He spent a year at Rice 
University as a Welch Fellow, and then joined the staff at Cornell 
University as Director of the National Institutes of Health High 
Resolution Mass Spectrometry Facility.
    Dr. Serum joined the Hewlett-Packard Company in 1973 as 
Applications Chemist for Mass Spectrometry. Since then he has held a 
number of management positions, including Technical Support Manager for 
Mass Spectrometry in Europe (Paris, France); Marketing Manager for Mass 
Spectrometry and Spectroscopy at the Scientific Instruments Division; 
R&D Manager at the same division; and R&D Manager for the Avondale 
Division (Laboratory Automation and Chromatography Instrumentation). 
Since 1984 he has held business unit level positions as Operations 
Manager for Laboratory Automation Systems, Automated Chemical Systems 
Operation and Analytical Group Research and Development Manager. In 
1992 Dr. Serum was named General Manager for Mass Spectrometry, 
Infrared, and Protein Chemical Systems. He was the founder of HP's 
Bioscience Products business. He has served as chairman of HP's 
Bioscience Council, co-chairman of the Hewlett-Packard R&D Council and 
the Pharmaceutical Business Council. He retired from Hewlett Packard in 
August 1999 to co-found Viaken Systems Inc, where he was a Director and 
served as Executive Vice President and Chief Operating Officer. Dr. 
Serum has been a Venture Partner with Flagship Ventures and currently 
serves as President of Scitek Ventures, a science and technology 
consulting firm that he founded in 2002. In 2002 he was elected as a 
lifetime National Associate of the National Academy of Sciences and in 
2004 he was elected to serve on the Visiting Committee for Advanced 
Technology of NIST. In 2005, Dr. Serum was named to the President's 
Advisory Board for Advanced Technology at the Research Corporation. In 
2008 he was elected Chairman of NIST's Visiting Committee on Advanced 
Technology. Dr. Serum has served or currently serves as a member of the 
Board of Directors for a number of emerging technology based companies.

OTHER PROFESSIONAL ACTIVITIES

        <bullet>  Member of National Academy of Sciences task force on 
        the Future of Analytical Chemistry in the U.S.(1986)

        <bullet>  Member of National Science Foundation task force to 
        Review Policy for Science Education in the U.S. (1987)

        <bullet>  Invited speaker at numerous educational meetings and 
        conferences on Science Education

        <bullet>  Past member of Hewlett-Packard Education Relations 
        Board

        <bullet>  Review Panel for Hewlett-Packard Grants Program for 
        Analytical Chemistry (1989-1992)

        <bullet>  Member of Science & Technology Board, College of 
        Letters and Science, James Madison University (1988-93)

        <bullet>  Member of Board of Directors, Biotechnology Research 
        and Development Corporation (1988-94)

        <bullet>  Member of the National Institute of Standards and 
        Technology (NIST) technology assessment panel (1990-1992)

        <bullet>  Counselor (alt), Analytical Chemistry Division, 
        American Chemical Society (1992-95)

        <bullet>  Member of the Board, Center for Photochemical 
        Sciences, Bowling Green State University (1994-Present)

        <bullet>  Member of ACS subcommittee for improvement of 
        chemistry curriculum (1994-95)

        <bullet>  Member of National Research Council, Committee on 
        Undergraduate Science Education (1996-2001)

        <bullet>  Member of National Research Council, Committee on A 
        National Digital Library (1997)

        <bullet>  Chairperson, NRC Review committee on National Math 
        Standards (1999)

        <bullet>  Member & Vice Chairman of Board of Assessment for 
        Chemical Science and Technology Laboratory, NIST ('97-'01)

        <bullet>  Chairman of Board of Assessment for CSTL, National 
        Institute of Standards and Technology ('01-'03)

        <bullet>  Member National Research Council Committee on 
        Undergraduate Science Education (02-03)

        <bullet>  National Associate (life), National Academy of 
        Sciences (2002)

        <bullet>  Member of Visiting Committee for Advanced Technology, 
        NIST (2004-09, Vice Chair 2007-08, Chair 2008-10)

        <bullet>  President's Advisory Board for Advanced Technology, 
        Research Corporation (2005-09)

        <bullet>  Chairman, Visiting Committee for Advanced Technology, 
        NIST (2008-10)

    Mr. Gordon. Thank you, Dr. Serum, and now we will hear from 
Mr. Shank.

STATEMENT OF MR. CRAIG SHANK, GENERAL MANAGER, INTEROPERABILITY 
                          AT MICROSOFT

    Mr. Shank. Thank you, Chairman Gordon. Chairman Gordon, 
Ranking Member Smith, my name is Craig Shank. I am the General 
Manager of the Interoperability Group at Microsoft.
    As a global innovator with over two decades of experience 
in the development and implementation of technical standards, 
Microsoft appreciates the opportunity to participate in this 
important hearing.
    Effective technical standards can help promote innovation, 
fuel market growth, and drive corresponding job development. 
The information and communication technology, ICT, marketplace 
changes rapidly. New and competing standards that are 
responsive to the marketplace needs enable deployment of new 
solutions and encourage development of innovative products and 
services.
    Microsoft plays a dual role in standardization activities. 
We actively contribute innovative technology to standardization 
in many technology areas. As an example, we have recently 
contributed a Microsoft technology called User Interface 
Automation that helps developers build products like screen 
readers and voice recognition that provide essential 
accessibility to computers and the internet to those with 
significant vision, hearing, or other learning needs.
    In addition, we sit on the other side of the table as our 
products from Windows to X-box and beyond implement thousands 
of standards that are formulated by a broad diversity of 
standards bodies. This balance, sitting on both sides of the 
standards fence, frames our perspective. A diverse standards 
ecosystem that supports multiple technologies is good for U.S. 
and global economic growth.
    It is also worth noting that the computing experience 
itself is undergoing a powerful transformation as consumers, 
governments, and businesses are harnessing computing power in 
what is called the cloud, with new innovative products and 
services and broad-based communications. New businesses will 
form because any small group of developers at this stage can 
create content or software and have it available 
instantaneously in the global marketplace.
    With this new opportunity comes corresponding new 
responsibility, including the need to protect privacy of users, 
the security of their data, and to enable interoperability 
between systems; all areas where standards can play an 
important role.
    NIST has already provided engineering taxonomies that have 
been important in helping support cloud standardization 
efforts. We see NIST as a key player in the standards 
ecosystem. Its expertise and involvement are highly valued by 
the private sector.
    With regard to NIST, the Subcommittee posed two related 
questions for this hearing. The Subcommittee's first question 
seeks perspectives on the proposed NIST realignment. NIST will 
be placing standards professionals within each of its labs so 
they will be linked to the relevant technology experts. We also 
understand that NIST will create a coordination team among 
these standards professionals. NIST is also proposing broadly a 
more effective executive management structure.
    We believe that the proposed reorganization of NIST will 
enhance NIST's overall effectiveness in meeting its mission and 
objectives, including in the standards system.
    The Subcommittee's second question asks what role NIST 
should play in technical standards within the Federal 
Government. As background, President Obama's Administration has 
identified a number of very complex technology policy areas 
such as Smart Grid, Healthcare IT [Information Technology], and 
Cybersecurity that impact many different stakeholder groups. 
All of those are areas where standards can play an important 
supporting role.
    The current voluntary market-driven standard system has the 
tools it needs to create standards to help accomplish these 
policy objectives. At the same time, in these key policy areas 
there is a role for an active convener of the key stakeholders, 
so together they can assess standards-related needs, and frame 
solutions to address these challenges. We believe that NIST, 
based on its standards expertise and its reputation as a 
neutral, science-based organization, can serve as this 
convener.
    As a convener seeking to develop a standards framework to 
support U.S. Government technology objectives, NIST should 
define the problems using specific use cases and scenarios, 
identify and bring together relevant stakeholders to build 
consensus on frameworks and outcomes, and then report back to 
those stakeholders. NIST's work in developing its framework and 
roadmap for Smart Grid Interoperability Standards exemplifies 
this approach.
    NIST can also serve in a separate convener role to 
facilitate the exchange of information and collaboration among 
Federal agencies on domestic and international standards policy 
issues and on Federal agency engagement in international 
technical standards development efforts. It would be helpful 
for the U.S. Government to articulate a unified position or be 
mindful of differing viewpoints, especially when engaging in 
international standards bodies.
    In closing, I would like to thank you for giving us the 
opportunity to testify today. Microsoft appreciates NIST's 
valuable contributions to standardization, and certainly we at 
Microsoft look forward to working with you and the broader 
standards community, including my colleagues here at this 
table, to preserve and promote a vibrant, collaborative, and 
effective standards ecosystem.
    Thank you.
    [The prepared statement of Mr. Shank follows:]
                   Prepared Statement of Craig Shank
    Chairman Wu, Ranking Member Smith, and Members of the Subcommittee, 
my name is Craig Shank and I am the General Manager of the 
Interoperability Group at Microsoft. In this capacity, I have executive 
responsibility for Microsoft's corporate standards activity on a global 
basis. Microsoft believes strongly that the best standards emerge from 
voluntary processes and public-private partnerships that allow for 
dynamic, market-led innovation.
    As a global innovator with over two decades of experience in the 
development and implementation of technical standards, Microsoft 
appreciates the opportunity to participate in this important hearing on 
the structure of the National Institute for Standards and Technology 
(NIST) and its future role in technical standardization.
    At their most fundamental, technical standards are tools that 
promote efficiency and innovation by making it easier to create 
products and services that work together--or ``interoperate''--better. 
This is equally true in the information and communications technology 
(``ICT'') environment. With an increasingly diverse and competitive ICT 
marketplace, and new ICT solutions, services and vendors appearing in 
the market almost daily, interoperability has become a market 
imperative. The development and implementation of standards is one of 
the ways in which the technology industry is able to meet consumer 
demand for interoperability.\1\
---------------------------------------------------------------------------
    \1\ Microsoft's commitment to standardization to help further 
interoperability is reflected in our Interoperability Principles, 
available at http://www.microsoft.com/interop/Principles/default.mspx 
Additional information about Microsoft's standards policies and 
activities can be found at: http://www.microsof.com/standards/.
---------------------------------------------------------------------------
    By helping to enhance interoperability among products or services 
within a market, and being responsive to real marketplace needs, 
standards can help promote innovation, fuel market growth, and protect 
investments in new technologies. The ICT marketplace changes rapidly. 
As a result, ICT standards must be able to change in response. New 
standards must be permitted to compete in order to respond to these 
needs, further additional competition, and encourage the development of 
innovative solutions.\2\
---------------------------------------------------------------------------
    \2\ Given the dynamic nature of innovation and ICT standards 
development, government should be cautious about mandating adherence to 
any particular standard without demonstrating sufficient need and 
without support from the impacted industry and relevant stakeholders. 
Mandated standards can divert normal marketplace outcomes, lock the 
industry into a less-than-optimal solution, and reduce incentives to 
innovate in that technology area.
---------------------------------------------------------------------------
    Microsoft plays a dual role in standardization activities. First, 
we actively contribute innovative technology to standardization related 
to computing hardware, software and associated devices, the Internet 
and its infrastructure, consumer electronics devices, and 
telecommunications systems. Second, we are an active implementer of 
standards. Microsoft supports a very large number of standards in our 
products that are formulated by a broad diversity of standards bodies. 
Ultimately, both of these roles are deeply informed by the market, and 
in particular feedback on the way customers use ICT products and 
services in their day-to-day lives.
    Because of this dual role as contributor and implementer, Microsoft 
takes a balanced approach to standards development and policy. We 
understand the particular needs and concerns of those contributing 
time, resources and technologies to the development of standards, but 
we are equally sensitive to the needs of those who are implementing the 
resulting standards into their products and services. Our involvement 
on both sides of the standards fence frames our perspective that a 
diverse standards ecosystem that supports multiple technologies is good 
for the U.S. and global economies.
    The computing experience itself is undergoing a powerful 
transformation that demonstrates the velocity of change in the ICT 
marketplace and related technical standards. Increasingly consumers and 
businesses alike are harnessing computing power in the cloud. People 
are running applications and storing documents on powerful servers 
located in massive data centers. They are using more powerful client 
devices. And they are creating, accessing, and sharing more of their 
personal information more frequently and with more people than ever 
before. This new frontier opens up a whole new horizon of 
possibilities, including new software investments that will create new 
business models and opportunities to form and grow new businesses. For 
instance, these technologies already enable any small group of creators 
to develop content or software and to have it available instantaneously 
in the marketplace around the globe. And with this new opportunity 
comes corresponding new responsibility. This includes the need to 
protect the privacy of users and security of their data and to enable 
interoperability between systems--all areas where standards may play an 
important role.
    Cloud computing is a technology area with broad applicability for 
the U.S. Government, not only to increase efficiency and reduce cost, 
but also for communication between agencies and as a continuation of 
efforts to increase citizen participation. As such, cloud technology 
represents an ideal opportunity for beneficial participation by NIST. 
Indeed NIST has already made an important contribution to the 
advancement of cloud standards, essentially providing the engineering 
taxonomies that help the industry discuss the various aspects of cloud 
technology and deployment. NIST is a key player in the standards 
ecosystem, and its expertise and involvement is highly valued by the 
private sector.\3\
---------------------------------------------------------------------------
    \3\ Among other contributions, NIST's measurement standards 
underpin many key technology standards, including those relating to 
optical fibers and to a range of electronic devices. NIST also provides 
key standards-related services, including the ``Notify U.S.'' program, 
and participates in various standards development organizations (SDOs). 
Equally important is NIST's role under the National Transfer and 
Technology Advancement Act (``NTTAA'') and OMB Circular A-119 to help 
coordinate U.S. Government's interests in coordinating U.S. Government 
interests in standards and conformity assessment systems.

---------------------------------------------------------------------------
Questions Posed by the Committee

    In connection with today's hearing, the Committee has posed three 
inter related questions regarding NIST:

        <bullet>  Why is coordination amongst Federal agencies and 
        departments on technical standards issues important? How can it 
        be improved?

    The current Administration has identified a number of technology 
policy areas of focus (such as smart grid, healthcare IT and 
cybersecurity) where there is a need to understand what positive role 
standards can play. We believe that NIST can undertake a convener role, 
and thereby promote collaboration among both public and private sector 
stakeholders aimed at developing an appropriate standards framework to 
address U.S. Government objectives. This is important in connection 
with certain technology policy objectives where the standards-related 
needs involve several standards elements and cut across many different 
technologies and stakeholder groups.
    From an industry perspective, in this context we value effective 
problem definition, particularly through scenarios and use cases. We 
believe NIST is uniquely positioned to help bridge the gap between 
complex U.S. Government objectives and the voluntary consensus-based 
standards system by taking a proactive role in convening a wide breadth 
of key stakeholders tasked with undertaking that problem definition 
work.

        <bullet>  What could a future NIST role in standards be? How 
        can NIST foster Federal agency collaboration on international 
        technical standards issues?

    NIST can also serve in a separate convener role whereby it could 
facilitate the exchange of information and collaboration among Federal 
agencies on domestic and international standards policy issues and on 
Federal agency engagement in international technical standards 
development activities as appropriate. Typically, these types of 
standards issues are of interest to more than one agency, and it would 
be helpful for the U.S. Government to articulate a unified position or 
be mindful of differing viewpoints, especially when engaging in 
international standards bodies.
    Further, the President's National Cyberspace Policy Review released 
in May 2009 (see http://www.whitehouse.gov/assets/documents/
Cyberspace<INF>-</INF>Policy<INF>-</INF>Review
<INF>-</INF>final.pdf), stated that ``the sheer number, variety, and 
differing focuses of these venues strain the capacity of many 
governments, including the United States, to engage adequately.'' The 
President also articulated the need ``to enhance the identification, 
tracking, and prioritization of international venues, negotiations, and 
discussions where cybersecurity-related agreements, standards, 
activities, and policies are being developed.'' NIST is uniquely 
positioned to play a central role in facilitating coordination among 
the Federal agencies on international technical standards issues.

        <bullet>  Please share any perspectives on the proposed NIST 
        alignment.

    NIST appears to have taken a very thoughtful approach to its re-
organization that, among other things:

        <bullet>  Seeks to ensure that the development of standards-
        related strategies for a given technology is done in close 
        collaboration with the NIST staff and other stakeholders with 
        the appropriate subject matter expertise relating to the 
        technology area at issue.

        <bullet>  Seeks to capture and address the different 
        perspectives of all internal stakeholders when developing and 
        refining positions or approaches.

        <bullet>  Establishes what is likely to be a more effective 
        executive management structure. We would like to elaborate 
        further on these responses below.

Discussion

    We believe that the U.S. Government should leverage NIST's 
expertise on standards, the standardization ecosystem and technology 
issues, as well as its well-deserved reputation as a neutral, science-
based organization that serves as an ``honest broker'', in helping to 
enable further coordination among Federal agencies on issues relating 
to technical standards.
    This coordination is becoming increasingly important. While the 
Federal agencies have all been assessing the use of private sector 
standards (and participating in their development) whenever possible 
under the NTTAA, many of these agencies are now considering standards 
to address broader technology policy initiatives that cut across agency 
missions and responsibilities.\4\ In addition, to the extent that 
standards-related policy or technical issues arise that may have both 
national and international implications impacting competition, trade 
and innovation, Federal agencies should seek to share information and 
collaborate to the extent possible on developing a unified U.S. 
Government position.
---------------------------------------------------------------------------
    \4\ If NIST is tasked with these roles, one of the key challenges 
it will face will be to determine the factors that should trigger the 
initiation of a ``NIST-coordinated'' standards planning process. These 
processes can consume large amounts of public and private sector 
resources, and they may not always be the best response to a given 
technology policy challenge--so NIST will want to initiate them 
strategically.
---------------------------------------------------------------------------
    We believe that this approach will support the U.S. Government in 
accomplishing its objectives. U.S. competitiveness is best served in an 
environment where private and public stakeholders from around the world 
can work to develop standards that meet the needs of the global 
marketplace and foster global competition that in turn fuels further 
innovation and new market development.
    As a convener seeking to develop a standards framework to support a 
U.S. Government technology objective, NIST should:

        <bullet>  Define the problem. Questions that must be answered 
        include: What is the specific policy goal to be addressed? What 
        is the range of technologies that support this goal? What 
        standards already exist? How effective are existing standards 
        at solving the problem at hand? Accurately framing the answers 
        to these and other questions is essential for several reasons. 
        It helps to identify the full range of stakeholders who will be 
        relevant to the standardization effort; to establish the 
        parameters necessary for any effort involving different 
        industry players (particularly players with divergent agendas); 
        and to ensure that the outcome of the standardization effort is 
        focused, pragmatic, and is likely to be endorsed by key 
        stakeholders.

        <bullet>  Identify and bring together relevant stakeholders. 
        Effective standardization framing requires input from multiple 
        stakeholders from the very beginning, particularly in complex 
        standards areas. Absent broad participation and open 
        consultation, there is the risk that some interests, including 
        government agencies and smaller companies who have invested 
        heavily in their own innovative products and systems, will be 
        shut out of the relevant market or otherwise disadvantaged.

        <bullet>  Report progress to stakeholders and to other 
        interested or affected U.S. agencies.

    In our experience focusing on interoperability, effective multi-
party engagement requires high-quality problem definition. For us, the 
key element of this is a plain-language description of how a technology 
or system might be used (sometimes called the ``scenario'', or ``use 
case'') that needs to be defined for a given standard or specification. 
Fundamentally, these scenarios are the foundation for efficient, 
effective specification development and engineering work across 
multiple parties. They tend to create a solid set of objectives that 
different players--even players with somewhat differing agendas--can 
work well with, creating solid, pragmatic results. Both of these 
elements, in addition to a very effective public-private partnership, 
have been a core part of the Smart Grid effort at NIST, and we believe 
they are reflected in the positive response to the NIST Framework and 
Roadmap for Smart Grid Interoperability Standards.
    We also see the need and value of NIST holding a convener role with 
regard to U.S. Government interests in connection with national and 
international standards-related technology and policy issues. Stating 
the obvious, the ICT sector is becoming increasingly global. This trend 
will only be heightened as we move toward next-generation computing and 
communications technologies, which are often built to transcend 
national boundaries. In a convener role, NIST could help facilitate 
information exchange and seek to coordinate U.S. positions on 
standards-related issues across the Federal Government as 
appropriate.\5\
---------------------------------------------------------------------------
    \5\ We recognize that each Federal agency has its own mission and 
responsibilities, and we are not suggesting that NIST take on the role 
of a mediator, arbiter or final decision maker on these types of 
issues. In addition, we also see the need for the private sector to be 
able to communicate directly on relevant issues with individual 
agencies and to provide subject matter expertise.
---------------------------------------------------------------------------
    Finally, with regard to NIST's proposed re-organization, it appears 
that NIST will place standards professionals within each of its labs, 
enabling NIST to better coordinate the needs of the lab and the needs 
of standards body participants in the relevant technology areas. We 
also understand that NIST will create a coordination team to facilitate 
cooperation between the standards professionals in each of the labs; 
this should help to ensure that the efforts of one lab do not 
inadvertently disadvantage the interests or objectives of other labs.
    We believe that the proposed reorganization will enhance NIST's 
overall effectiveness in meeting its mission and objectives.
                        ************************
    In closing, I would like to thank you again for giving us the 
opportunity to testify today. As I hope my testimony has demonstrated, 
Microsoft believes strongly that the best standards emerge from 
voluntary processes and public-private partnerships that allow for 
dynamic, market-led innovation. We appreciate NIST's valuable 
contributions to standardization and we support NIST undertaking a more 
defined convener role to further enable Federal agency coordination on 
issues relating to technical standards. We look forward to working with 
you and the broader standards community to preserve and promote a 
vibrant, collaborative and effective standards ecosystem.

                       Biography for Craig Shank
    Craig Shank is the General Manager for Microsoft's Interoperability 
Group, with executive responsibility across the company for standards 
and interoperability from a business, technical, policy and legal 
perspective. Microsoft's Interoperability Group is responsible for 
corporate direction on interoperability and standards, as well as the 
company's global team of standards officers.
    Before joining Microsoft in 2003, Mr. Shank was an engineering and 
business development executive at Linen, a venture-backed Linux 
developer, with responsibility for teams in Japan, France, Australia, 
the U.S. and Canada. Before he joined Lineo, Mr. Shank was an executive 
with both business development and legal roles at NetManage and Wall 
Data, both NASDAQ-listed software companies enabling cross-platform 
interoperability for enterprise systems and connecting users and 
applications on Windows, IBM mainframe and Unix systems. Mr. Shank also 
was a partner in the technology law practice at the law firm of Perkins 
Coie.
    Mr. Shank graduated from Harvard College (1982) and Georgetown 
University Law Center (1986).

    Mr. Gordon. Mr. Wennblom.

STATEMENT OF MR. PHILIP WENNBLOM, DIRECTOR OF STANDARDS, INTEL 
                          CORPORATION

    Mr. Wennblom. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify today. I am Philip Wennblom, and I 
manage the Corporate Standards Office at Intel Corporation.
    Standards are important to Intel's business and to the 
information and communication technology industry overall, and 
as a result Intel has a strong interest in the health of the 
standardization system in the United States and globally. Intel 
and our industry are primarily interested in global standards, 
standards that are developed to address global requirements and 
which are ultimately adopted around the world.
    The National Institutes of Standards and Technology has 
very important roles in the standard system. NIST is an active 
and expert participant in developing standards through 
involvement by 400 or so of its employees, and the 
participation of those employees is highly valued.
    NIST has a role in public and private coordination on 
priority areas of standardization, for example, the current 
work on Smart Grid, and I would emphasize that these types of 
efforts to convene the public and private sectors to coordinate 
require a large amount of effort and should be considered 
exceptional. They should represent areas where policy 
priorities for the government, areas where NIST has strong 
expertise, and where there is a need for public and private 
coordination.
    NIST also has an important role to coordinate among Federal 
agencies on standardization development on policy topics, a 
role that has been described in the NTTAA [National Technology 
Transfer and Advancement Act]. I support Dr. Gallagher's plans 
for reorganizing NIST, and I believe these changes will 
strengthen the important roles that NIST plays in 
standardization. The changes should improve management 
stability and customer orientation, and the Director's 
examination of strengthening the interagency coordination role 
is also well considered.
    I would like to thank the Subcommittee for the opportunity 
to be here, and of course, I will be happy to take questions 
when we get there.
    [The prepared statement of Mr. Wennblom follows:]
                 Prepared Statement of Philip Wennblom
    Mr. Chairman, Ranking Member Smith, members of the Subcommittee, my 
name is Philip Wennblom and I am Director of Standards for Intel 
Corporation. In this capacity, I manage Intel's Corporate Standards 
Office, that has responsibility for coordinating standards development 
activity across the company, for setting Intel's standardization policy 
positions, and for representing Intel in strategic standards 
development organizations around the world. I am also a member of the 
Board of Governors of the IEEE Standards Association, a member of the 
Executive Board of INCITS and chair of the Information Technology 
Industry Council Standardization Policy Committee. I am honored to 
appear before this Subcommittee today on behalf of Intel Corporation.
    Standards are critical to Intel and Intel has played a leading role 
in standards development for many years. The importance of standards to 
Intel can be illustrated by considering four areas of benefit. Intel 
has found that standards can help create ecosystems of companies that 
grow new markets--the Universal Serial Bus (USB) is an example. USB 
allows many types of products, from cameras to cell phones to printers, 
to connect easily to computers. Intel designs and manufactures complex 
semiconductor products. By implementing standards in the design of 
those products, Intel makes them easier for system manufacturers to 
use--the PCI Express bus is an example. The PCI Express bus is a high 
performance interface for connecting subsystems, such as graphics, in a 
broad range of computers. Many standards in the Information Technology 
industry enable interoperability among products, which is of great 
value to consumers and businesses. IEEE 802.11, also called WiFi, is a 
good example of such a standard. A laptop with IEEE 802.11/WiFi can be 
counted on to work with wireless access points to gain Internet access 
all over the world. Standards enable access to global markets. Intel's 
products require large investments to develop-and the economics of 
semiconductor manufacturing favors producing them in large volumes. 
When standards supported by those products are accepted globally, it 
provides for the most attractive market opportunity.
    From an industry perspective, NIST is a very important contributor 
to standards development in at least three principal ways. First, NIST 
provides substantial expertise to standards development through the 
involvement of its experts--some 400 people involved in 100 standards 
development organizations. I've seen firsthand the contributions that 
some of those experts make in the international standards area--
technical contributions and leadership that benefit the U.S. government 
and U.S. industry. NIST has been a reliable partner, developing 
standards in collaboration with industry for many years.
    Second, NIST has proven to be a very capable convener on standards 
development challenges that are of priority concern to government 
policy makers and that present a unique need for coordination of public 
and private sector interests. In those situations, NIST is in a 
position to facilitate private and public sector collaboration to 
identify relevant standards, technologies, and operational parameters 
that support achievement of the government's policy goals and industry 
and consumer goals of innovation, competition, and interoperability.
    The ongoing work at NIST on Smart Grid is a good example of this 
process at work. Under the Energy Independence and Security Act of 
2007, NIST has been assigned the ``primary responsibility to coordinate 
development of a framework that includes protocols and model standards 
for information management to achieve interoperability of Smart Grid 
devices and systems'' to accelerate national Smart Grid deployments. In 
this role, NIST has developed a structure (including web portal, 
organized groups and conferences) that brings together a diverse group 
of private and public sector technical, standards and market experts in 
developing the Smart Grid roadmap/framework. I applaud NIST's efforts 
to partner with other stakeholders in helping to determine the 
technology and direction of this effort. I expect that NIST will 
continue to play an important role in facilitating the discussions and 
ensure the roadmap reflects consensus and supports evolving market 
innovations for standards and interoperability. Health Care IT and 
cybersecurity present similar challenges where NIST can play this 
valuable role.
    Third is the role that NIST can and does perform in coordinating 
discussions on standards within the various agencies of the U.S. 
government. NIST can be very effective in convening the public sector 
interests in a priority area, and greater Federal coordination can 
enhance the public-private partnership that is essential to the U.S. 
standards system. Working with NIST in its role as the enquiry point 
for World Trade Organization Technical Bathers to Trade Agreement 
notifications, I have seen the benefit of NIST involvement in sharing 
information among Federal agencies and in coordinating responses on 
standards issues that impact global trade.
    With regard to the proposed realignment of NIST, the changes that 
Director Gallagher has outlined should make NIST even more efficient 
and effective. The creation of . Associate Director positions should 
improve the efficiency and stability of the organization, and the 
directions that Director Gallagher has described for having laboratory 
programs aligned by mission should make NIST more customer oriented and 
ultimately more successful. The plans to examine NIST's role in 
coordination of standards development and policy topics among Federal 
agencies are well considered.
    The standardization process in the U.S. relies on a partnership 
between the stakeholders. This is especially true in areas of 
collaboration between the government and the private sector. The key 
guidance for the partnership is found in the National Technology 
Transfer and Advancement Act of 1995 and implementing regulations 
contained in OMB Circular A-119. For international standardization, the 
private sector, through the American National Standards Institute takes 
the lead in representing the United States in the International 
Organization for Standardization and International Electrotechnical 
Commission. NIST, other Federal agencies and the private sector have 
historically participated cooperatively in the process of developing 
United States positions and in representing those positions. In my 
view, that process has worked well and is a key strength of the U.S. 
system of standardization. It is not in need of major reforms.
    In sum, Mr. Chairman, I strongly support the work of NIST and 
recognize its contributions in the standards arena. I favor Director 
Gallagher's proposed realignment strategies and believe they would 
strengthen our standards development process.

                     Biography for Philip Wennblom
    Phil Wennblom is Director of Standards for Intel Corporation. As 
head of Intel's Corporate Standards Office, part of the Global Public 
Policy organization, he has worldwide responsibility for direction and 
coordination of Intel's standardization efforts. Phil is responsible 
for company-wide standardization policy, training and coordination. His 
team leads Intel representation in strategic standards setting 
organizations world-wide.
    Phil serves on the IEEE Standards Association Corporate Advisory 
Group, on the IEEE Standards Association Board of Governors, and on the 
INCITS Executive Board. He is chair of the Standardization Policy 
Committee of the Information Technology Industry Council (ITT).
    From 1989 to 2001, Phil held a number of positions in Intel's 
Mobile Platforms Group, including engineering manager, director of 
strategic planning and director of mobile technology development. Phil 
joined Intel in 1984 as a design engineer in Technology Development 
where he developed SRAM, EPROM and E<SUP>2</SUP>PROM products.

    Mr. Gordon. Thank you, and finally, Mr. Updegrove.

 STATEMENT OF MR. ANDREW UPDEGROVE, PARTNER, GESMER UPDEGROVE, 
                              LLP

    Mr. Updegrove. Chairman Gordon, Ranking Member Smith, and 
Subcommittee Members, thank you for the opportunity to testify 
on this important topic. My name is Andrew Updegrove, and I am 
a Partner in the Boston Law Firm of Gesmer Updegrove. I am also 
on the Board of Directors of the American National Standards 
Institute, but the opinions I will express today are mine 
alone. Those opinions are primarily informed by my experience 
in representing almost 100 non-profit membership organizations 
that develop and/or promote standards over the last 22 years. I 
will seek to frame my testimony today in the context of three 
important areas where standards play a crucial role; 
achievement of policy goals, maintaining national 
competitiveness, and ensuring the efficient use of taxpayer 
dollars.
    Let me begin by addressing the standards-related 
dependencies of public policy today. Over the last 100 years 
our bottom-up, private sector-led standards development 
structure has served this Nation well. This approach was wisely 
affirmed as we all know and strengthened by Congress in 1995, 
when it passed the Technology Transfer and Advancement Act.
    But today the world is changing in ways that I believe 
require us to optimize this bottom-up partnership to ensure 
that it continues to be as effective as it has been in the 
past. As we become evermore dependent on technology in general 
and the internet in particular, thousands of new standards have 
been required to simply make things work. Major policy 
initiatives such as the Smart Grid and lowering the costs of 
healthcare through the adoption of electronic health records 
are reached depending on the availability of scores and often 
even hundreds of standards, many of which did not exist when 
these initiatives were launched.
    Unfortunately, while the private sector is capable of 
developing individual standards quickly for specific purposes 
within a single sector, it lacks the will to tackle complex, 
cross-sectoral challenges rapidly or at least as rapidly as we 
need them to accomplish it today. This is important due to what 
you would expect would be difficulties resolving competing 
economic interests which will not always be closely aligned on 
every standard that needs to be created.
    While that cross-collateral, cross-sectoral solutions can 
and usually do evolve over time, the urgent challenges such as 
cybersecurity and the rising costs of healthcare do not permit 
us the luxury to allow normal market forces to provide 
solutions. As a result, when the national interest demands the 
rapid deployment of a wide cross-sectoral range of coordinated 
standards, I believe a catalyzing force is needed. I note this 
as well. Challenges such as the Smart Grid and electronic 
health records are but the advanced party of a host of 
similarly cross-sectoral, complex standards dependent 
challenges the policymakers will face in the future.
    To whom can Congress turn when it determines that multiple 
industry sectors must be motivated to provide the standards 
tools needed to address ambitious policy goals? In the examples 
noted above, the answer has been clear. To NIST.
    Let me turn to national competitiveness. The development 
and deployment of standards is essential to creating new 
technologies and new product markets and therefore, to jobs 
creation and maintaining a healthy balance of trade as well. 
This lesson has not been lost on governments abroad. In 
particular, policymakers in the European Union and China have 
integrally woven standards development adoption into their 
national strategies.
    Indeed, in 2005, a U.S. Aerospace Industry working group 
concluded, ``Without a clear strategy and support from industry 
and government space agencies, the U.S. is in the process of 
ceding the development of standards for the commercial space 
industry to venues outside of our influence.''
    The Chinese government has observed this process and today 
is sponsoring the creation of more and more homegrown standards 
for the benefit of its domestic industries. This is especially 
worrisome because standards are essential to every emerging 
area of potential managing growth, job growth on the horizon 
today.
    But how are we to achieve such sophistication without 
abandoning our bottom-up model? The answer, I believe, is to 
charge a single agency or department with the role of tracking 
emerging needs for public-private coordination with marshalling 
facts and data for lawmakers and the Administration to support 
the development and deployment of standards-aware international 
trade policy and with providing a coordinating function between 
the public and private sectors.
    Again, I would submit that NIST is the right tool for this 
job.
    Lastly, let me highlight the relevance of standards to the 
efficient use of resources. There is no argument that widely-
adopted standards create competition, increase product choices, 
and drive costs down. Hence, supporting the development of 
standards can have a very material impact in lowering 
government costs directly in procurement, especially where any 
agency can buy products from a single vendor list. This same 
support can also lower costs indirectly because government-side 
standards adoption allows information to be entered once and 
then exchanged widely, securely, and rapidly across departments 
and agencies.
    Because of the immense soft power of government purchasing, 
government can also provide incentives to industry to move 
rapidly in directions that are beneficial to society in 
general, such as towards greater cybersecurity and towards 
greater accessibility for those with disabilities.
    Turning very briefly to the questions posed, why is 
coordination among Federal agencies important? Achieving goals 
such as protecting homeland security and making government more 
open can only be achieved through standards. I can expand upon 
that if necessary, but suffice it to say that without standards 
these goals simply cannot be achieved.
    What could the future role of NIST be? Quite clearly, NIST 
can be capable of running policies such as the Smart Grid, and 
I think if I were to leave you with one message today, the role 
of NIST is essential in meeting these complex challenges such 
as the Smart Grid, and I believe that it is important that that 
be institutionalized in cooperation with private industry.
    In conclusion, I would like to thank the Chairman and the 
Subcommittee Members for inviting me to speak to you today, and 
I look forward to the progress that you will make in these 
areas. Thank you.
    [The prepared statement of Mr. Updegrove follows:]
                 Prepared Statement of Andrew Updegrove

Introduction

    Chairman Wu, Ranking Member Smith, and Subcommittee Members. Thank 
you for the opportunity to testify on this important topic.
    I ask that my written testimony be accepted into the record.
    My name is Andrew Updegrove, and I am a partner in the Boston law 
firm of Gesmer Updegrove LLP. I am also on the Board of Directors of 
the American National Standards Institute (ANSI), but the opinions I 
will express today are mine alone. Those opinions are primarily 
informed by my experience in representing almost 100 non-profit 
membership organizations that develop and/or promote standards over the 
past 22 years.
    I will seek to frame my testimony today in the context of three 
important areas where standards play a crucial role: achievement of 
policy goals, maintaining national competitiveness, and ensuring the 
efficient use of taxpayer dollars.

Achievement of Policy Goals

    Over the last hundred years, our ``bottom up,'' private sector-led 
standards development structure has served this nation well. This 
approach was wisely affirmed and strengthened by Congress in 1995 when 
it passed the Technology Transfer and Advancement Act (TTAA). But 
today, the world is changing in ways that I believe require us to 
optimize this ``bottom up'' partnership.\1\
---------------------------------------------------------------------------
    \1\ I have written at greater length on the need to upgrade our 
``bottom up'' system in, Behind the Curve: Addressing the Policy 
Dependencies of a ``Bottom Up'' Standards Infrastructure, Standards 
Today, Vol. VIII, No. 4 (October-November, 2008), at: http://
www.consortiuminfo.org/bulletins/oct08.php#feature
---------------------------------------------------------------------------
    As we have become ever more dependent on technology in general and 
the Internet in particular, thousands of new standards have been 
required to simply make things work, Major policy initiatives such as 
the SmartGrid and lowering healthcare costs through national adoption 
of Electronic Health Records (EHRs) are each dependent on the 
availability of scores--and even hundreds--of standards, many of which 
did not exist when these initiatives were launched.
    Unfortunately, while the private sector is capable of developing 
individual standards quickly for specific purposes within a single 
sector, it lacks the will to tackle complex, cross-sectoral challenges 
rapidly, in part due to the inherent difficulties of resolving 
competing economic interests. While adequate cross-sectoral solutions 
can, and .usually do, evolve over time, urgent challenges such as 
cybersecurity and the rising costs of healthcare do not permit us the 
luxury to allow normal market forces to provide solutions.
    As a result, when the national interest demands the rapid 
development of a wide, cross-sectoral range of coordinated standards, a 
catalyzing force is needed. And note this well: challenges such as the 
SmartGrid and EHRs are but the advance party of a host of similarly 
cross-sectoral, complex, standards-dependent challenges that policy 
makers will face in the future.
    To whom can 'Congress turn when it determines that multiple 
industry sectors must be motivated to provide the standards tools 
needed to address ambitious policy goals? In the examples noted above, 
the answer has been clear: to NIST.

National Competitiveness

    The development and deployment of standards is essential to 
creating new technologies and new product markets--and therefore to 
jobs creation and maintaining a healthy balance of trade as well. This 
lesson has not been lost on many governments abroad. In particular, 
policy makers in the European Union and China have integrally woven 
standards development and adoption into their national strategies.
    Indeed, in 2005, a U.S. aerospace industry working group concluded:

        <bullet>  Without a clear strategy and support from industry 
        and government space agencies, the U.S. is in the process of 
        ceding the development of standards for the commercial space 
        industry to venues outside of our influence.\2\
---------------------------------------------------------------------------
    \2\ See, Hitchcock, Laura et al., The Future of Aerospace 
Standardization, AIA (January 2005). http://www.aia-aerospace.org/
assets/aerospace<INF>-</INF>standa rdization010S.pdf.

    The Chinese government has observed this process, and today is 
sponsoring the creation of more and more ``homegrown'' standards for 
the benefit of its domestic industries. This is especially worrisome, 
because standards are essential to every emerging area of potential 
manufacturing job growth on the horizon today.
    But how are we to achieve such sophistication without abandoning 
our ``bottom up'' model? The answer, I believe, is to charge a single 
agency or department with the role of tracking emerging needs for 
public-private coordination, with marshalling facts and data for 
lawmakers and the administration to support the development and 
deployment of standards-aware international trade policy, and with 
providing a coordinating function between the public and private 
sectors.\3\
---------------------------------------------------------------------------
    \3\ This is not to suggest that NIST will always be the appropriate 
entity to act as the principal point of contact with private industry 
on a given initiative. But it can act as the central clearinghouse, 
developer of best practices, and resource assisting other agencies and 
departments in establishing partnerships with appropriate industry 
segments on specific initiatives.
---------------------------------------------------------------------------
    Who could provide such a function better than NIST, which is not 
only the governmental domain expert in the area of standardization, and 
has acted in this capacity in the past with respect to multiple 
individual initiatives, but a part of the Department of Commerce as 
well?

Efficient Use of Resources

    There is no argument that Widely adopted standards create 
competition, increase product choices and drive costs down. Hence, 
supporting the development of standards can have a very material impact 
in lowering government costs directly in procurement, especially where 
any agency can buy products from a single approved list. The same 
support can lower costs indirectly, because government-side standards 
adoption allows information to be entered once, and then exchanged 
widely, securely and rapidly across departments and agencies.
    Because of the immense ``soft power'' of government purchasing, 
government can also provide incentives to industry to move rapidly in 
directions that are beneficial to society in general, such as towards 
greater cybersecurity, and towards greater accessibility for those with 
disabilities.

Questions Posed

    With these observations as background, let me turn to the three 
questions posed to me in your invitation.

        1.  Why is coordination amongst Federal agencies and 
        departments on technical standards issues important? How can it 
        be improved?

    Achieving goals such as protecting Homeland Security and making 
government more open, interactive and transparent requires the ability 
to seamlessly and securely exchange data among agencies, and in a 
consistent fashion with citizens, first responders and others 
externally. In order to meet that goal, I believe that it will be 
necessary to charge a single agency or department with the 
responsibility of facilitating the exchange of information and the 
coordination of action across agency and departmental boundaries. That 
body should also be required to report back to Congress on compliance 
with the program.
    Given NIST's competence in the standards area, as well as its 
experience in compiling and reporting Agency compliance data under the 
TTAA, it appears to be the obvious candidate for this task.

        2.  What could a future NIST role in technical standards be? 
        How can NISI foster Federal agency collaboration on 
        international technical standards issues?

    I believe that there are three ways in which our ``bottom up'' 
process needs to be optimized. In each case, NIST would be the logical 
choice to act on behalf of government:

        <bullet>  Most crucially, I believe that the role that NIST has 
        played in initiatives such as the SmartGrid and EHRs should be 
        institutionalized and optimized over time. The private sector 
        simply does not have the will to self-organize and drive large, 
        cross-sector, standards-based initiatives through to a rapid 
        conclusion without the support and, frankly, the prodding of 
        the government.\4\
---------------------------------------------------------------------------
    \4\ While the private sector has not typically had the will to 
undertake complex, cross-sector Initiatives rapidly, it does have the 
means to do so. ANSI has formed ``panels'' around a number of complex 
areas, including biofuels, homeland security, identity prevention and 
management and healthcare information technology standards. Several of 
these panels have operated in collaboration with Federal bodies such as 
NIST and the Department of Homeland Security. Where this pairing has 
existed, these panels have been particularly successful. A list of ANSI 
panels can be found here: http://www.ansi.org/standards activities/
standards boards panels/overview.aspx? menuid=3.

        <bullet>  In contrast to most other nations, there is no 
        government-appointed spokesperson for the United States in all 
        but one of the major formal international standards bodies,\5\ 
        or in the hundreds of ``informal,'' but often more influential, 
        SSOs generally referred to as ``consortia.'' ANSI is 
        internationally recognized as the. United States representative 
        in several of the formal organizations, but it lacks an 
        explicit Congressional appointment to serve in that capacity. 
        In fact, NIST and ANSI have worked together productively on 
        many initiatives in the past, and I believe that this 
        relationship should be formalized as the principal conduit 
        between government and private industry, thereby ensuring an 
        ongoing and efficient flow of information. Among other 
        benefits, NIST and ANSI could facilitate formulating joint 
        positions between government agencies and relevant industry 
        sectors on international issues when such unanimity would be 
        useful.
---------------------------------------------------------------------------
    \5\ The exception is the International Telecommunication Union 
(ITU). Unlike the International Organization for Standardization (ISO) 
and the International Electrotechnical Commission (IEC), where ANSI 
represents U.S. interests, the ITU is a treaty organization.

        <bullet>  With the convergence of technologies and the rising 
        importance of systemic concerns such as global warming, the 
        need to develop positions relating to standards will regularly 
        cross agency and departmental boundaries.\6\ NIST can act as a 
        clearinghouse for communication between agencies to help them 
        understand their respective needs and priorities. Similarly, 
        NIST can coordinate their participation in SSOs to minimize 
        cost, and maximize government input into the standards 
        development process.
---------------------------------------------------------------------------
    \6\ For example, both wireless and geospatial standards are 
important to agriculture, Homeland Security, the environment, the 
military, health monitoring, distanced learning--the list goes on and 
on.

        3.  Please share any perspectives on the proposed NIST 
---------------------------------------------------------------------------
        realignment.

    For historical reasons, NIST has become the custodian of a variety 
of missions, each of which must compete for necessarily limited 
resources. To the extent that realignment will help NIST support the 
goals that I have highlighted above, I think that it is crucial for 
Congress to support that realignment.

Conclusion

    For decades, the United States has been a global leader in 
standardization, led in large part by private industry. The leadership 
of the private sector remains necessary, but it is no longer 
sufficient. The U.S. needs a more empowered, more activist NIST to 
bring our historical public-private partnership in the standards arena 
up to the demands of the present and the future, and to assist the 
Federal agencies and departments in efficiently managing the jobs that 
they have been asked to perform.\7\
---------------------------------------------------------------------------
    \7\ For a full list of my standards-related recommendations to the 
current administration, see 10 Standards Recommendations for the Obama 
Administration, Standards Today, Vol. VIII, No 4 (October-November 
2008) at http://www.consortiuminfo.org/bulletins/oct08.php#feature
---------------------------------------------------------------------------
    Mr. Chairman, ranking member Smith, and Subcommittee members, I 
would like to thank you for committing your time to these important 
matters, and for the opportunity to testify before you today.

                     Biography for Andrew Updegrove
    Andrew Updegrove is a founding partner of Gesmer Updegrove LLP, a 
Boston-based technology law firm. He has a broad range of experience in 
representing both mature and emerging high technology companies of all 
types in all aspects of their legal affairs. Since 1988, he has also 
represented and helped structure more than 100 worldwide standard 
setting, open source, promotional and advocacy consortia, including 
some of the largest standard setting organizations in the world. He 
spends a significant part of his time giving strategic advice to 
clients of the firm.
    His leadership in standards related matters is widely recognized. 
in 2005 he was elected to the Boards of Directors of the American 
National Standards Institute. (ANSI) and in 2005 to the Free Standards 
Group (FSG), and in 2007 to the Board of Directors of the Linux 
Foundation. He is also a member of the Board of Advisors of HL7, an 
ANSI accredited developer of electronic health standards for clinical 
and administrative data. in 2004, he was the sole representative of the 
consortium community to be appointed as a member of the United States 
National Standards Strategy Committee.
    He has been retained by many of the largest corporations in the 
world to assist them in setting up international standard setting and 
technology promotional organizations, and by both multinational 
companies as well as government agencies to advise them in setting 
their standards-related policies and goals. He has also provided 
testimony to the Department of Justice and Federal Trade Commission on 
standard setting and intellectual property rights, and written and 
filed pro bona ``friend of the court'' briefs in major standards-
related litigation before the Federal Circuit Court, the Supreme Court, 
and the Federal Trade Commission.
    In May of 2002, he conceived and launched ConsortiumInfo.org, an 
extensive Web site intended to provide the most comprehensive and 
detailed source of news and information on the Internet on standard-
setting, open source software project development, and forming and 
maintaining consortia. The site serves up to a million page views a 
month to a global audience, including up to 50,000 visitors a month 
from China. In December of 2002, he conceived and launched the 
Consortium Standards Bulletin (now Standards Today), a bi-monthly 
eJournal of news, ideas and analysis on standard setting. Standards 
Today is sent to a large and rapidly growing list of standards 
professionals and other subscribers at major corporations, government 
agencies and universities throughout the world. Other sections of the 
site include the Standards MetaLibrary, with over 1,800 categorized and 
abstracted articles, and the Standards Blog, which attracts up to 
100,000 visitors a month. Besides his efforts at the Consortiuminfo.org 
Web site, he writes and speaks frequently both domestically and 
internationally on topics involving standards, open source software and 
consortia. in 2005 he was selected to receive the ANSI President's 
Award for Journalism for his work at ConsortiumInfo.org and Standards 
Today.
    Mr. Updegrove is a graduate of Yale University and the Cornell 
University Law School. He is a certified mediator, and a member of the 
Panel of Mediators of the Massachusetts -Technology Leadership Council.

    Mr. Gordon. Thank you, and now we will begin the questions, 
and the Chairman recognizes himself.
    I think that Mr. Smith and I would hardly concur that there 
ought not be a Federal office of winners and losers, and that 
it seems to me that you are all saying that there does need to 
be some coordination and that NIST is a good place for that, 
and the word, convener, has been used.
    Now, what I want to be able to understand is sort of this 
chicken and the egg, you know, should NIST say, well, folks, we 
need to convene, so you all come on over here, or does the 
private sector go up and say, we are having some problems. 
NIST, will you help us convene? How do we say that it looks 
like some other countries are trying to get ahead of us in 
setting international standards? So how should we, you know, 
let us convene and take a lead in that.
    So, you know, what is the chicken and the egg? Mr. Shank, 
why don't we start with you?
    Mr. Shank. Sure. Thank you, Chairman Gordon. It is tempting 
to answer between those two. The answer is yes. Deciding which 
things that NIST may play an active role is actually one of--
the convener's role in is actually one of the real challenges. 
That is determining where one acts. I do think that in 
anticipating how we may go about this, how NIST may play a 
role, one of the key aspects of playing the convener across 
stakeholders may be conducting periodic landscape reviews, 
because I know that one of the things that is--that people are 
focused on here is not just having a backward-looking approach 
to the things, the problems that NIST may be able to help fix 
but a forward-looking role in the areas where convening these 
stakeholders can proactively help to initiate things.
    I believe that--my slightly tongue-in-cheek answer yes 
really actually does need to be the case, and that is that with 
the ongoing capability to run landscape review comes engagement 
with stakeholders where stakeholders may identify key areas. We 
may also see NIST identifying or Congress identifying key 
areas. An aspect that is important from Mr. Wennblom's 
testimony is that these do take up significant public and 
private resources, so we need to be thoughtful about the 
specific areas that are--that we do engage in, that NIST 
engages in because they can be very expensive. I think those 
need to be largely exception-based, but there are areas that 
are important enough to merit that.
    Mr. Gordon. Well, why don't we let Dr. Gallagher--we will 
get out of the hypothetical and why don't you tell us what 
you--where is this chicken and egg, and then maybe the industry 
folks could react to that.
    Dr. Gallagher. Great. Thank you. Actually I think there are 
two distinct cases. I think the question about when a 
government takes a stronger role in convening or coordinating 
on a standards effort actually touches on what is the purpose 
of the standard, and I think in many cases where we are looking 
at are standards that are needed for achieving government 
goals.
    In the case of Smart Grid, I think NIST took a proactive 
lead in initiating the convening role because to address our 
energy needs we had to stimulate and have a standard structure 
in place that would be viable for, let us say, regulation or 
for conditions under Federal grants and assistance and so 
forth.
    Mr. Gordon. And the same with health IT?
    Dr. Gallagher. The same with health IT, the same with 
cybersecurity. So I think there are many cases where the 
government's need for technology is going to be manifested in 
terms of needing to have a certain structure of standards in 
place, and that is the case where we are going to want to be 
more proactive.
    I think there are also cases where industry is going to 
drive this and be requesting of us a greater participation 
because of an impasse or because of an international issue and 
those types of scenarios play out as well. So I think we can be 
both initiated by industry and initiated by government need.
    Mr. Gordon. Anyone else want to comment on this?
    Mr. Updegrove. If I may, please. I think that an important 
thing to be realized is that the standard-setting 
infrastructure is about 100 years old, and for most of that 
time it was created to basically solve problems within silos. 
It is currently faced now with the reality where silo solutions 
don't work anymore, and private industry in my opinion has not 
really figured out ways to do things that cross many different 
sectors. It is getting better. It is coming up with a mechanism 
of setting profiles, and you are increasingly seeing new 
consortiums set up, not to set standards but to create profiles 
of standards to address use cases. And if that sounds like the 
Smart Grid, it should because it is basically the same type of 
exercise.
    The problem is is that private industry is good at coming 
up with those to handle still fairly discrete problems. It 
takes an enormous amount of impetuous and an enormous amount of 
organization and an enormous amount of sometimes motivating 
dollars to pull together something in the magnitude of the 
Smart Grid. So I think that that is the first main area where 
government realizes that without government it is just not 
going to happen.
    The second thing is I think that there will be standards 
that are of special interest to government and maybe a good 
example would be open government. I have spoken at times about 
comparing standards to civil rights legislation, that if you 
are disabled and you can't log onto a Web site, the more 
government saves money by transitioning to a web-based 
interface with the citizenry, you can effectively be 
disenfranchised if you can't operate the technology to 
interoperate with government. And that might be a second 
category where the involvement of government might be 
appropriate.
    Mr. Gordon. Let me--before I run out of time here, let me 
get to the threshold question. Really, we posed two questions 
to you, and one was as Dr. Gallagher I think said, and I agree, 
in a transparent way he is telling you upfront where he is 
seeing this thing going, and so that is one question, you know, 
having viewed that, would the panel, industry panel members 
raise your hand if you think that this is the right direction.
    Okay. So the record will show they all do, and then the 
second one is do you think that the NIST Director should be 
elevated to an Under Secretary position and raise your hand.
    Once again we have a concurrence.
    So I have some more areas of interest but----
    Mr. Smith. Go ahead.
    Mr. Gordon. Okay. I will get to one more.
    One area that is a real theme, I think, in this Committee 
has been competitiveness, and we recognize that we have a 
global economy now. How do we compete in that area? And we 
recognize that innovation, in this case sometimes, standards 
lead to new technologies, and that leads to jobs.
    We are seeing that governments abroad and policymakers 
abroad, particularly in the EU and China, often integrate their 
standards with their national strategies. I think that can be 
dangerous sometimes, you know, in that if you think that the 
government knows everything and they take the wrong course, 
then that is a problem. But it also can get their assets 
together well and make them, you know, be able to pull together 
all their assets.
    So let me ask you from your experiences in a global market, 
what are you seeing the disadvantages and advantages of--well, 
first of all, I guess we should say is--do you see EU and China 
doing these things, and if so, what are the advantages and 
disadvantages and what are the lessons that we should learn?
    Whoever would like to start. Yes, sir.
    Mr. Wennblom. It is a very important topic, and I would 
agree with your characterization of the approach that we see in 
Europe and China. It is more government-directed and 
government-driven, and I suppose a benefit of that approach is 
when the government would like to see a standard put in place, 
there is a very direct way to make that happen.
    However, if you step back and look at the results, I 
believe that the system we enjoy in the U.S. has been quite 
successful and continues to be successful despite this 
different approach that we see taken in other places. As I 
mentioned, our industry in information and communication 
technology really relies on standards to be globally adopted. 
So it is not enough to have a standard implemented in one 
country. We need to see standards that nearly all countries 
will adopt.
    And the market-driven system in the U.S. where we have, you 
know, industry and government standards, research, the market-
driven-oriented system has been very, very successful in taking 
standards which have become popular in the U.S. and having them 
adopted globally, and I don't believe it is under imminent 
threat from more government-directed systems.
    Mr. Gordon. I assume that a lot of that in the past has 
been because we have been a dominant market, so if we are not 
such a dominant market in the future, can we still rely in that 
way?
    Mr. Wennblom. We may not be as dominant a consumption 
market but still industries which are based in the U.S. are 
often very global companies that are participating in markets 
around the world, and when those companies are participating in 
a standards process that is market driven, I see impact 
globally on aligning around technologies. And if a single 
country wants to pursue its own agenda, it is difficult for 
that to be successfully adopted globally.
    Mr. Gordon. Okay. Does anyone--yes, sir. Go ahead.
    Mr. Updegrove. I would take a slightly different approach, 
but I agree that I think the private-sector system is working 
extremely well in the standards area. So I think that there are 
two discreet areas where optimization would be required.
    In the first place I think you made a very good point about 
the size of the American market. To date the United States has 
had a very disproportionate impact on the setting of standards 
in areas such as information communications technology. There 
are in existence today something north of 500 standards 
consortia, not counting the traditional standards bodies that 
have been created to set standards in this area.
    I have helped set up about 100 of them, and I would say 
that out of that 100 two have been primarily led by foreign 
companies, and every last single one of the rest of them, the 
leadership came from major international corporations 
headquartered in the United States.
    I think we sometimes forget the enormous benefit that 
American industry has had from having those standards efforts 
launched to serve at the outset the strategic interests and 
goals of American industry. People abroad are starting to 
become aware that other people can play that game. China in 
particular, with, you know, 1.3 billion people, has very much 
realized that all the patents are owned in the west, and they 
are tired of paying patent royalties to build products to sell 
to their own people while they make 10 cents on a DVD player 
and ship it off to the west where somebody makes $5 on the 
patent royalties plus a markup on the device.
    This is going to change, and when you have that many 
consumers, the game is very clear to learn how to play. I saw 
in the U.S. IT Report just last week three new standards 
consortiums were formed in China. Last year there might have 
been three in the entire year. So I think one of the things 
that we might not realize until it is gone is when other people 
start playing the same game, and when American companies that 
used to start consortia here are looking at that big a market, 
they won't have any choice but to play the Chinese game the 
same way.
    Mr. Gordon. Well, I see that problem, so my question is 
what are the answers?
    Mr. Updegrove. I think here is where we need to have better 
communication between private industry and government so that 
private industry can alert and frankly, I think, recruit 
government to assist it in trying to stay ahead on the trade 
policy ways, particularly I would say through enforcing our 
rights under the WTO [World Trade Organization] and the 
Technical Barriers to Trade Act, that these things don't get 
ahead of us and get to the point where they were with the WAPI 
[Wireless local area network Authentication and Privacy 
Infrastructure] and Wi-Fi where we have to bring out the big 
guns to help get us back to the centerline.
    Mr. Gordon. Okay. Well, let us just complete this thought. 
Anybody else want to weigh in here?
    Mr. Shank. I think I would echo Mr. Updegrove's comments 
about thinking about both the trade attribute and the 
standardization attribute as related but not necessarily the 
same thing going on.
    In the trade side we do have the WTO as a vehicle. We would 
like to make sure that we are alert, looking forward, looking 
into those things proactively so that we don't end up too late 
in the game.
    On the standardization side I think one of the things that 
is a theme that should run along with that is the effort to 
draw some of these nations into the global standard system 
where there is an opportunity to compete effectively using the 
global competitive environment as opposed to a single country 
environment. So that is where we see an opportunity to use the 
existing private standard system but use it on a global basis 
as a matter of global competitiveness.
    Mr. Gordon. Yes, sir.
    Dr. Serum. Just quickly back to the question of the 
coordination of standards, very often once a technology comes 
into play, it is the question of how long does it take for 
companies, private sector and public bodies to come together to 
think in one fashion before you dominate the industry, and I 
think the very question of being nimble by coordinating 
standards, and again, I reference the Smart Grid. A few years 
ago it looked like an almost insurmountable problem to get 
everybody to agree on an architecture and a model of how we 
would go about it, and if we can use that as a model for other 
high-priority opportunities, I think that can make a dramatic 
difference in our competitiveness because we can be 
standardized in a much faster pace.
    Mr. Gordon. Thank you, and Mr. Smith is recognized for as 
much time as he may consume.
    Mr. Smith. Thank you, Mr. Chairman, and thanks again to the 
panel. You know, it reminds me of certainly my objective of 
serving that is to create more opportunity or ensure 
opportunity, not get caught up with the outcome necessarily, 
and I see each and every one of you as having a vital role in 
that, and I would say certainly within the private sector 
represented here today you have probably given more opportunity 
to people, whether it is the young people in the audience or 
large companies, but I appreciate the prosperity that some have 
experienced as a result of more opportunities along the way.
    And so I think that certainly I would say we have the 
existence of NIST as a way to not only ensure opportunity but 
to ensure competition and not only to make sure that 
competitors in the private sector compete because I think that 
we have a good bit of that, I also think that we want to ensure 
that we have a competitive industry domestically to compete in 
the world marketplace. And I think that we can have discussion 
not only today but in the future of how we can leverage that.
    I do want to add that I am concerned that some of the 
pending policies, and I won't get into those today, but I am 
concerned that some pending policies that are out of the 
control of each of you but they might stifle innovation, they 
might stifle opportunity, and that concerns me a great deal, 
not only for the future of our country but for the future of 
every individual. So with that I might just touch on a few 
things.
    Dr. Gallagher, how will the proposed Director's office 
reorganization support improving NIST's interaction with 
industry and academia to support competitiveness, and what do 
you have planned to help America compete, and will this 
reorganization make a difference to American competitiveness?
    Dr. Gallagher. Thank you for the question. I believe that 
the reorganization will actually make a very substantial 
difference in how NIST is interacting with industry, which is 
its primary stakeholder, and the reason for that is simple. It 
has to do with accountability. The real difference in the 
organizational structure that I am proposing is not at the 
technical level. The NIST scientists and engineers will 
continue doing the world-class work that they have done, but 
the leadership now will be directly held responsible for 
carrying out a portion of our mission.
    And since our mission is to work with industry, I think the 
major outcome of this is to make them very acutely focused on 
how their services, whether it is measurement services that 
they are providing out of one of our technical laboratories, or 
whether it is our technology services in promoting new 
technologies, developing standards, their job description now 
is really based on how well they carry that out.
    And so what I think it does is it creates much stronger 
ties between the NIST leadership and industry leadership. That 
has been the relationship that I clearly wanted to strengthen. 
And I think that as you have heard a little bit just in the 
standards arena, I view the job of NIST as to allow the 
conditions for competitiveness an opportunity to take hold.
    So in many cases, what we are talking about is an enabling 
infrastructure. In other words, it creates the business or 
technology conditions for companies to innovate and generate 
new products, to have global markets available to them, to have 
a supply chain that they can work with. It is about putting 
that trust into those relationships, and viewed that way this 
is about creating an environment where we can make and compete 
and still be the number one country in the world for developing 
new products and services. I think that translates to jobs and 
economic prosperity in a very direct way.
    Mr. Smith. Very good. Thank you. Now, just a point of 
clarification. It sounds like there would be a net increase of 
senior-level positions at your shop.
    Dr. Gallagher. Actually, no. It is not even a new layer of 
management. Currently the existing organization has 17 line 
organizations that report to me through a Deputy Director. So 
while I am replacing a single Deputy Director with three 
Associate Directors, there are going to be fewer line 
organizations reporting in. So actually it is not an increase 
in the number of executive positions.
    Mr. Smith. Okay, or FTEs.
    Dr. Gallagher. Not at all. There is no change.
    Mr. Smith. Okay. I appreciate that, and, again, I don't 
want to pretend to manager your shop there. I am not qualified, 
number one, but certainly that is not what I see my role to be, 
but budgetarily I just want to stay on top of things.
    You did mention some interagency coordination process. If 
you wouldn't mind elaborating on that and especially if you 
might be able to share in your discussions with OSTP, OMB, and 
USTR [United States Trade Representative], just to use a few 
acronyms here today.
    Dr. Gallagher. Thank you. So as I have looked at the 
standards coordination effort, as I have said, it really has 
two major components. One is having a more robust set of models 
for how we work with the private sector. I mean, to 
oversimplify, historically we had either a very hands-off, we 
will participate at a technical level, but it is really not 
managed at all, or we take over as a government, and we write 
down standards ourselves. I think the real attractiveness of 
the Smart Grid approach is that it represented a new type of 
model where you had a much more active engagement, and it 
really was a public-private partnership.
    Is that going to be the right approach for every standards 
question? The answer is definitely not, but I think in cases 
where you need those attributes of being able to define your 
needs very clearly and have some influence over the 
architecture, for example, for security in the Smart Grid, over 
the timeliness of the development, it is a very appropriate 
model.
    The other area has been how do you get--these technology 
systems that are becoming very complex, and there is almost 
always a large number of agencies who have a stake in the 
outcome, and so we have been looking very carefully at how to 
improve the interagency coordination. And I have reached the 
conclusion that it has two ingredients. One is it has to have 
an agency like NIST which has deep technical capabilities and 
understands the standards process. We in some way become the 
corporate memory for how to do standards-related activities.
    The other part of interagency coordination, though, is 
actually being able to direct agencies to get together, to 
mediate discussions, and reach conclusions, and in my view that 
is very much a White House function, and so what I have been 
doing is trying to work very closely with OSTP and with OMB and 
the U.S. Trade Rep to come up with a form where we tie together 
the type of interagency process that we have had under the 
NTTAA, so there is a Standing Interagency Coordination 
Committee chaired by NIST, and couple it with a more strategic 
policy leadership-level-driven interagency process that would 
come out and be managed by the White House.
    And I think by having NIST involved in both of those we tie 
these processes together. It should give us the ability to have 
the active leadership participation when we need it and not 
lose any of the very active working level interaction that we 
currently have with the agencies.
    Mr. Smith. Okay. Thank you, sir.
    And a little bit outside the scope of the specific 
questions that you were asked to answer in your prepared 
testimony, if you wouldn't mind telling us what each of you, 
excuse me, might believe are NIST's strongest contributions to 
American competitiveness and any areas where you believe NIST 
could use improvement, and especially as we reauthorize 
American COMPETES, what recommendations would you make to 
strengthen NIST?
    Maybe alphabetically. I don't know. Whoever wishes to--go 
ahead, Mr. Wennblom.
    Mr. Wennblom. As I mentioned, Intel, and I believe 
industry, appreciates when NIST comes to the table because 
invariably the NIST representative is an expert and makes sound 
contributions to the standards process. The area for 
improvement that I hear discussed among my colleagues is we 
want more of that, that there are some places where we would 
like to have NIST participating in developing standards, and 
they are not there. So I don't know if it is a criticism, but, 
you know, if there is an opportunity to give NIST a bigger 
opportunity to participate in the standards process, I think 
that is something industry would appreciate, and it would 
ultimately make the U.S. more competitive.
    Mr. Smith. Okay. Dr. Serum.
    Dr. Serum. I will refer back to the proposed reorganization 
realignment in my comment. I think historically with a 
discipline structure that has been in place NIST has done just, 
well, world-class research and three Nobel Prizes have come out 
of it as demonstration of that.
    However, that research in the current structure is not as 
closely aligned to its deliverables with industry as it could 
be, and this is one of the reasons why I strongly support Dr. 
Gallagher's realignment proposal because all elements of its 
impact on industry, the pioneering measurement technology that 
gets developed together with the necessary standards that the 
industry needs to be competitive, all are accountable within 
one organization, and the decisions can be made by a small 
group of people, made much more rapidly, and made 
synergistically with the outcome, the desired outcome closely 
associated with the pioneering research.
    So I think that is probably a significant advantage of the 
new proposed structure.
    Mr. Smith. Thank you. Mr. Shank.
    Mr. Shank. Thank you. It is daunting to try to select 
NIST's strengths, so rather than select specific strengths let 
me perhaps--I will outline some general areas. Dr. Serum has 
identified the existing body of basic research capabilities. 
Certainly Mr. Wennblom spoke to the importance of NIST's role 
in standards.
    I think the way that many of these have developed is that 
NIST has an independence that drives a credibility that allows 
NIST to participate across different stakeholders. It is what 
we sometimes call an honest broker's role. We do value that 
very much across the different industry participants and the 
other stakeholders. So we think that that is a key attribute to 
being able to play this convener's role and to being able to 
pull stakeholders together.
    As I look to areas that one might leverage out of NIST, 
certainly we have thought of rather than areas of improvement, 
the capacity to leverage that convener's role that is some of 
what we have spoken about here today. If I were looking to 
align resources at any organization on standards issues, one of 
the things that I would certainly think about is aligning the 
standards professionals very closely with the specific 
technology areas that are referenced, and it turns out that 
that is one of the things that the NIST realignment is designed 
to do. It will create that matrix of both close engagement with 
the specific missions on a technology basis and then a capacity 
to coordinate that across different groups at NIST.
    Mr. Smith. Okay. Thank you. Anyone else?
    Mr. Updegrove.
    Mr. Updegrove. First, I think the biggest strength of NIST 
in the context of the discussion we are having today in one way 
is just that there is an enormous pool of people that get 
standards. That is not very common across other parts of 
government, and all of the sudden standards matter a lot more 
than they used to, and it is not the easiest thing to get up to 
speed.
    So it is the major resource available to government today 
to educate government about what it needs to know to support 
modern policy in the technology area. That would be--it is 
unmatched everywhere else in government. There are islands of 
competence on particular areas but not this broad 
understanding.
    I would couple that with one concern, which is that many 
engineers are familiar with the traditional infrastructure 
which is run through national standards bodies, and much of the 
action today in the ICT sector is outside of that in the 
consortia that I mentioned earlier. And I think that not 
everyone in NIST is as conversant with that reality as they 
might be and might be worth their while to be a bit more nimble 
in understanding that area.
    The last thing I would say is that it would ask NIST an 
awful lot to be the expert on every area of technology, so I 
guess I would sort of leave a hanging question whether 
government either needs to really empower NIST much more or at 
least realize there is only so much NIST can do to support 
government in an era where technology is as important as it is 
today and where something as relatively arcane as standards is 
important to know how to play the game very well in order to 
support the national interest.
    I think it is absolutely the place to start. I am not sure 
I see the end of the solution in how to make sure we can do 
everything.
    A final thought. When you look at Europe, Europe has spent 
40 years trying to knit together an increasing number of 
countries. One of the first things they had to do was to break 
down the trade barriers between each individual country, and 
one of the ways they did that was by breaking down the 
standards barriers. So Europe had a huge problem that 
government had to solve by understanding the standards. You 
look at China. China very much understands it has a huge 
problem it needs to solve by understanding the standards. They 
are throwing billions of dollars and literally thousands of 
people at that.
    We have been rather lucky in that we haven't had a big 
challenge that we needed to solve with standards. The Smart 
Grid is maybe the first example, electronic health records. I 
think that government should really use these as learning 
experiences to understand what government needs and how NIST 
can support it in understanding these, looking ahead, planning 
for them, and then solving them as effectively as possible.
    Mr. Smith. Thank you. I appreciate your comments and 
certainly we oftentimes forget about consumers both 
domestically and elsewhere, and I am glad that that is part of 
the discussion. We won't get into a whole bunch of trade policy 
here, but I know that competitiveness is a big issue because we 
want folks to flourish here at home as they might be able to 
provide a higher standard of living overseas and the stability 
that comes along with that.
    So with that I thank you.
    Mr. Gordon. Thank you, Mr. Smith. That is a very good line 
of questioning. As we mentioned earlier, competitiveness is a 
big theme of this Committee, and I think to be competitive and 
be successful we have to be worldwide competitive.
    This Committee really works hard at trying to be a 
committee of consensus, and I have heard the word consensus in 
rulemaking there a lot, and I think, again, the minority, 
majority, our staff, we all have to work together at this, and 
we are, you know, reasonably successful.
    But I think that both minority and majority both have 
honorable folks, a couple of them on each side, that sort of 
zig when everybody else zags, and you just can't always get 
them on the same page. So you are trying to develop these 
consensus standards and for parochial interests or for whatever 
other reasons somebody just doesn't agree.
    So how do you say tough luck and move on? Dr. Gallagher.
    Dr. Gallagher. Well, I think in general the voluntary 
consensus process that is used doesn't take consensus to mean 
unanimity. In fact, it allows for a plurality of views. It is 
really designed to make sure that different viewpoints, 
different technologies, different solutions get to the table. 
In other words, making sure that the process doesn't drive 
exclusivity.
    But, in fact, the process has shown itself to be very 
capable of making decisions that, in fact, don't make everybody 
happy, and otherwise I think you would resolve with the lowest 
common denominator in the standards, and that is not to our 
advantage either.
    Mr. Gordon. Finally, another thing that we have talked 
about here a lot is as we invest in R&D, as we invest in 
workforce development, and we have innovation that comes out 
with new technologies and new products, how do we keep those 
here? And I know you didn't say that much in your oral 
statement but in the written statement you talked more about 
NIST's interests in the manufacturing sector and trying to 
coordinate it across.
    Tell us what you are going to do to keep those dollars that 
we have invested in R&D here, how we are going to keep those 
products here also, or at least the manufacturing of those 
products here.
    Dr. Gallagher. Yes. I agree. I believe that the innovation 
framework we all discuss is the basis for our deep investments 
in R&D ultimately depend on economic action at the other end, 
and so in my view I see that as culminating in manufacturing, 
making and developing new products and services. And I think, 
in fact, there is a relationship between our manufacturing 
ability and our research capacities, and it is very important 
to this country that we be very competitive in that arena
    I don't know that NIST will solve all of the problems 
there, my approach is basically to take every NIST authority 
and program I have and focus it on this issue. So I think, for 
example, in standards we can do everything we can to make sure 
that the conditions are right for companies to develop new 
technologies and that those standards are adopted as widely as 
possible on an international basis so those markets that they 
build products to are available globally.
    I think we can work to make sure that the measurement 
infrastructure is in place so that companies can work with 
their supply chains, and we have trust in the system that 
components and things that are purchased, in fact, meet 
specification. I think we can work to drop barriers to 
technology transfer and made sure that ideas are getting out of 
the labs and into manufacturers and creating opportunities for 
them so that that can be a basis for growth.
    Basically, making sure that the playing field is as fair as 
possible, as advantageous as possible, and I think Americans 
have shown when those are the conditions, we step up, and we do 
very well, and I have no reason to believe that won't be the 
case.
    I really do view this as a broad spectrum approach at NIST. 
I would like to look at every program we have from our 
Manufacturing Extension Program to our measurement services to 
our Technology Innovation Program and make sure they are 
working in concert to try to maximize these opportunities for 
manufacturers.
    Mr. Gordon. Let me just conclude somewhat on this theme. I 
think there is a strong Federal role for basic research that 
the private sector is not willing to invest or doesn't have the 
type of resources to invest in, particularly when you have 
quarterly returns and all these sort of things. That then is 
made available for the applied research where the private 
sector takes it and moves forward.
    Any more thoughts on how we could make that better, how we 
can get this information to you, to the private sector, to be 
more productive? Or I guess maybe more particularly how NIST--
any role they could play there? If there isn't, that is fine.
    Dr. Serum. That is a tough question, but it is an age-old 
question of who are the right people to do the fundamental 
research, but in my association with NIST for the past 12 years 
I see areas where--and I understand in coming from industry 
that many times it is just impossible to get the industry 
players together with a common cause that is bigger than 
themselves. And so by NIST playing that technology role in 
certain areas of driving new technologies that the other ones 
won't have or won't do, it can then get done. So I think it is 
a little bit of chicken, egg problem again, but there is 
definitely a role for pioneering technologies in the 
government.
    Mr. Gordon. Yes, Dr. Gallagher.
    Dr. Gallagher. Mr. Chairman, just one thought as the 
Committee works on reauthorizing America COMPETES. The one 
thought I would leave you with is that this process of 
translating the ingenuity coming out of our labs into economic 
output for me is characterized by participation. In other 
words, at the basic research side we have a pretty good idea of 
who does that work and who funds it, and at the commercial side 
where it is actually being manufactured we know that that is 
done in industry.
    I don't think there is one answer in the middle, and I 
think this has been something people have focused on for many, 
many years, the whole notion of tech transfer and 
commercialization, and I think we will continue to look for a 
variety of solutions, and it may turn out that there is not one 
answer.
    But the one thing I do know is that the magic seems to 
happen when we have mechanisms where there can be a mix of 
participation. So when government and university, national labs 
and industry can work together in a variety of ways, that is 
what is happening in the middle, and so as the Committee looks 
at the authorization language, one of the important issues that 
was in COMPETES was the role that the different agencies play 
and in particular, making sure that the vehicles are there 
where we can form those partnerships as appropriate to work 
together, because that is, I think, the key ingredient.
    Mr. Gordon. Thank you.
    Mr. Smith, do you have anything else?
    Well, let me thank our witnesses for appearing here today. 
I think this was a very interesting hearing, and, again, thank 
you for your work for this and I am sure that we will be 
getting back with you as we try to put final touches on the 
COMPETES bill.
    Other Members will have an additional two weeks to submit 
any type of questions and answers from you, and with that the 
witnesses are excused, and the hearing is adjourned.
    Thank you.
    [Whereupon, at 11:18 a.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Andrew Updegrove, Partner, Gesmer Updegrove, LLP

Questions submitted by Chairman David Wu

Q1.  In your testimony, you note that lessons about the importance of 
development and deployment of standards being essential to creating 
new. technologies and new product markets, and thus, to job creation 
has not been lost in many governments abroad, and that policy makers in 
the EU and China have integrated standards development and adoption 
into their national strategies. Has this helped innovation and 
competitiveness of the countries/regions which have adopted this 
approach? Is the U.S. at a disadvantage because we do not have such a 
formal integration of technical standards strategy into our national 
strategies on innovation and competition?

A1. The question has two separate parts, which I will address 
independently.

Q1a.  Has the integration of standards development and adoption into 
the national strategies of countries/regions such as China and Europe 
helped innovation and competitiveness in those areas?

A1a. The motivations for incorporating standards development and 
adoption have varied, and therefore the impacts on innovation and 
competitiveness have differed as well. Europe and China provide 
instructive examples.
    Europe: Prior to the creation of the European Union, many 
standards-based barriers to foreign competition existed within European 
countries, as they did (and do) elsewhere in the world. For example, if 
each country develops its own standard for a given product and 
justifies that standard for safety or interoperability reasons, and 
forces all vendors to not only conform to that standard, but to be 
tested for compliance, then domestic vendors that comply to that 
standard, and which perhaps have priority for conformance testing, will 
have a significant advantage.\1\
---------------------------------------------------------------------------
    \1\ Japan has been particularly guilty of this type of conduct to 
wail off its domestic markets from foreign competition.
---------------------------------------------------------------------------
    For this reason, parties to the World Trade Organization are bound 
by the Agreement on Technical Barriers to Trade (ATBT),\2\ which bars 
signatories from enforcing ``home grown'' standards and conformity 
assessment requirements unless there is a valid justification for 
diverging from an existing international standard. But not all nations 
are members of the World Trade Organization (or were members of its 
predecessor, GATT), and the ATBT is, in any event, of more recent 
vintage.
---------------------------------------------------------------------------
    \2\ The Agreement on Technical Barriers to Trade can be downloaded 
at http://www.wto.org/english/docs<INF>-</INF>e/legal<INF>-</INF>e/17-
tbt.pdf. The WTO maintains a general resource page with additional 
information and links at http://www.wto.org/english/
tratop<INF>-</INF>e/tbt<INF>-</INF>e/tbt<INF>-</INF>e.htm
---------------------------------------------------------------------------
    Consequently, before the European Union could achieve its goals, 
these existing standards-based barriers to trade had to be dismantled, 
which became a significant policy objective. Achieving that goal helped 
the EU become what it is today--one of the largest marketplaces in the 
world, and a much more formidable competitor.
    In addition to breaking down these domestic barriers, European 
nations also created a number of important and influential regional 
standards organizations, such as the European Computer Manufacturers 
Association (ECMA), the European Committee on Electrotechnical 
Standardization (CENELEC), the European Association of Aerospace 
Industries (AECMA), and the European Telecommunications Standards 
Institute (ETSI), among others.\3\ While some of these organizations 
are now open to a global membership, they have helped European 
competitors work together to create standards that meet European 
priorities and strengths. These organizations are given deference by EU 
nations and EU agencies, and in some instances have been created in 
collaboration with EU authorities.
---------------------------------------------------------------------------
    \3\ A partial list can be found here: http://
www.consortiuminfo.org/links/linkscats.php?ID=35#E
---------------------------------------------------------------------------
    As noted in my testimony, in areas such as aerospace, U.S. 
manufacturers have expressed dismay at the impact on their own fortunes 
of the resulting passage of influence in standard setting from the U.S. 
to Europe. One need only look to the post-war rise of Airbus, which 
relies on widely distributed manufacturing across the EU of the 
components of aircraft--a totally standards dependent exercise--and the 
difficulties recently encountered by Boeing when it attempted the same 
manufacturing strategy in constructing its new 767 ``Dreamliner'' 
aircraft to see why this is of concern.
    Europe's sophistication in standards has also allowed it to out-
innovate and outcompete with the U.S. in non-commercial but equally 
important areas, such as achieving transparency and interactivity in 
government. In that regard, the European Interoperability Framework for 
pan-European eGovernment Services (EIF), which seeks to achieve data 
interoperability across the EU as well as affordable, accessible access 
by its citizens to EU information, is especially instructive. That 
document has been evolving over more than a decade, and could well 
serve as a model for the U.S. to emulate.\4\
---------------------------------------------------------------------------
    \4\ The home page for the ElF can be found at: http://ec.europa.eu/
idabc/en/document/2319/5644
---------------------------------------------------------------------------
    China: The motivations in China have been quite different. 
Notwithstanding its accession to the World Trade Organization, China 
has followed an aggressive campaign to develop ``home grown'' 
standards, in part because of the enormously larger number of patents 
owned by foreign companies in comparison to Chinese vendors. When 
standards are created that infringe upon patents, the owners of those 
patents sometimes require the payment of royalties for the privilege of 
conforming to the standard in question.
    Since conformance with interoperability standards (in particular) 
represents a precondition to accessing global markets, such patents can 
therefore become very significant to trade. And where the majority of 
the patents of importance in a given industry are owned by a limited 
number of players, each of which has negotiated patent cross licenses 
with the others (which may reduce, or even eliminate, the payment of 
standard-related royalties among them), a, nation like China can find 
itself at an extreme economic disadvantage.
    The result is that in the case of, for example, DVD players, many 
millions of devices are made in China that are then rebranded and sold 
by western, patent-owning companies. The Chinese manufacturer may make 
only a few pennies on each sale to the foreign customer, while that 
company makes a handsome per-device profit at retail. Worse yet, since 
the same foreign companies have also filed patents in China, Chinese 
manufacturers may only be able to make pennies on sales within their 
own country, after paying significant royalties to foreign patent 
owners.\5\
---------------------------------------------------------------------------
    \5\ I explain this situation in much greater depth in Government 
Policy and ``Standards-Based Ne-Colonialism,''Standards Today, Vol. VI 
No. 7 (August-September, 2007) at http://www.consortiuminfo.org/
bulletins/aug07.php#feature
---------------------------------------------------------------------------
    Not surprisingly, Chinese companies, as well as the Chinese 
government, are very unhappy about this situation. In response, China 
is creating standards of its own in areas such as cellular phones, 
wireless devices, document formats and more. In each case, the 
standards are designed to avoid infringing foreign patents, while 
reliably infringing Chinese-owned, royalty-bearing patents. This 
practice has already resulted in trade disputes between the U.S. and 
China, and doubtless will do so again in the future, if China is not 
brought into the fold of international standardization.
    China is using standards, therefore, to foster both competitiveness 
(to erect trade barriers) as well as innovation (to create incentives 
to innovate by opening up greater profit opportunities than would have 
existed if manufacturing was constrained by foreign origin, patent-
restricted standards).

Q1b.  Is the United States at a disadvantage because we do not have 
such a formal integration of technical standards strategy into our 
national strategies on innovation and competition?

A1b. Up until now, I would say that the answer (the aerospace industry 
aside) has largely been no. But I believe that this is now changing in 
important areas, due to several factors:

        <bullet>  Complexity of challenges: As developed at length in 
        my main testimony, the Smart Grid and Electronic Health Records 
        will not be the last areas in which the existing infrastructure 
        is not up to the challenge of quickly creating complex 
        frameworks of standards. Happily, the U.S. government has 
        stepped in creatively, via NIST, to address these needs. But 
        this was in part because a new administration acted forcefully 
        and rapidly. Were it not for the fact that the Obama 
        administration was motivated to solve budget problems and 
        create jobs through supporting these programs, it might easily 
        have stood aside. Had that been the case, each of these 
        initiatives might have been pursued more effectively.

           The result would have been that foreign vendors in a variety 
        of industries would have had a significant advantage, as smart 
        grids and EHRs were developed, tested and deployed abroad. By 
        the time the United States inevitably faced up to the need of 
        following in the same direction, foreign competitors would 
        already be well ahead of it in areas such as software, 
        intelligent meters, and much more.

        <bullet>  Protectionism: As noted earlier, China is using 
        ``home grown'' standards as a way to create greater 
        opportunities for its own manufacturers to dominate in domestic 
        markets. This has happened before, as was the case when China 
        created its own wireless security standard, in contrast to the 
        WiFi standards adopted elsewhere in the world. Only after a 
        variety of semiconductor manufacturers, including U.S.-based 
        Texas Instruments and Intel, announced that they would no 
        longer sell wireless chips in China and took the matter to 
        Washington was the matter (temporarily) resolved--through 
        direct intervention by the Secretary of State Colin Powell.

           If the U.S. government had been more engaged in the 
        standards area, this situation might have been defused and 
        resolved behind the scenes, rather than escalating (it 
        continues to fester today). Moreover, the Chinese policy of 
        creating home grown standards might not have continued to gain 
        steam.

        <bullet>  Opportunity: It is universally acknowledged that 
        standards create new markets for products and innovation. 
        Technologies such as the Internet, Web, music media, 
        telecommunications, Smart Grids, and much more simply would not 
        exist without standards. By identifying new standards-dependent 
        opportunities in areas such as clean technology and the 
        Internet and then supporting the creation and uptake of the 
        standards needed to make those technologies possible, the U.S. 
        could help jump start jobs creation and sales in those areas by 
        U.S. companies.

    I hope that the above proves to be useful, and would be happy to 
answer further questions, either by phone or in writing.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

                   Statement of Vinton G. Cerf, Ph.D.
          Vice President and Chief Internet Evangelist, Google
    Thank you Chairman Wu, Ranking Member Adrian Smith and members of 
the subcommittee for the opportunity to testify before you, in writing, 
on the planned NIST Organizational Realignment and its effect, and the 
potential role NIST can play in the inter-agency coordination of 
national and international documentary standards development and 
adoption. I regret that my calendar commitments conflicted with your 
kind invitation to testify in person and I hope that you will accept my 
sincere offer to meet with staff and members at a time of mutual 
convenience if this will contribute to achieving your legislative and 
policy objectives.
    My name is Vinton G. Cerf and I have served since October 2005 as 
Vice President and Chief Internet Evangelist of Google. With Robert 
Kahn, I am the co-inventor of the Internet's architecture and 
fundamental TCP/IP protocols. My career has centered on computers and 
communications including work at UCLA, IBM, Stanford University, MCI, 
the Corporation for National Research Initiatives, and the Defense 
Advanced Research Projects Agency. I was a founder of the Internet 
Society and its first president and served as chairman of the Internet 
Corporation for Assigned Names and Numbers (ICANN) for seven years. I 
served on the President's Information Technology Advisory Committee 
during the Clinton administration. I have been active in technology 
standards in the Internet Architecture Board (IAB), Internet 
Engineering Task Force (IETF) and the Internet Research Task Force 
(IRTF). For our Internet work, Robert Kahn and I have received many 
awards and citations including the U.S. National Medal of Technology 
and the U.S. Presidential Medal of Freedom. I began service on the 
Visiting Committee on Advanced Technology in 2007, served as its Vice 
Chair in 2008-09 and was elected Chairman in 2010.
    I have had the benefit of reading a draft of the testimony of Dr. 
James Serum who has also been asked to testify before this 
subcommittee. In consequence of this, I will attempt in this written 
submission to avoid duplication and seek to amplify his remarks where 
this seems warranted and draw attention to additional points that seem 
of interest to the subcommittee. While these remarks should be 
understood to be personal, I intend to draw also upon the recently 
submitted 2009 Annual Report of the VCAT to the Secretary of Commerce.

Purpose and Effect of the NIST Realignment

    Upon assuming the role of Deputy Director and Acting Director of 
NIST, Dr. Patrick Gallagher undertook to organize the top management of 
NIST so as to reduce the number of direct reports to the Director and 
to improve top management's attention to the needs of the operating 
units and programs undertaken by NIST. He was able to delegate 
responsibility, within the limits of his existing authority, for 
coordination of the laboratory programs, extramural programs and 
administrative and management programs to three top-level managers. In 
its most recent incarnation, the new structure would elevate each of 
the three to associate directorships, replacing the earlier single 
deputy director position. The VCAT strongly endorsed this aspect of 
reorganization. I was strongly persuaded of the value of this proposal 
on the grounds that this would increase management attention in each of 
the three areas, improving planning, execution and, importantly, 
integrated oversight of priorities across the organization.
    Upon his nomination and confirmation as Director of NIST, an action 
very strongly endorsed by the full VCAT, Dr. Gallagher undertook to 
begin a deeper re-examination of the structure of the laboratory and 
center programs. This was no simple task as the demands on NIST are 
extraordinarily diverse. There are efforts mandated by the Congress, 
such as the role NIST plays in Cyber-Security and Smart Grid standards; 
there are requests from industry for development of standards to 
enhance commerce and interoperability; there are requests or proposals 
from the research world to collaborate on basic and applied efforts to 
enhance the NIST metrology capabilities; and there are programs 
initiated at NIST in anticipation of need. The consideration of 
biological effects of nano materials is a good example of this kind of 
foresighted initiative.
    The VCAT has reviewed the process by which NIST management, 
including the laboratory and center leadership will evaluate 
alternative organizational structures. As is pointed out by my 
colleague and former VCAT chairman, Dr. James Serum, there are a 
variety of alternative organizational structures, each with strengths 
and weaknesses. It is to his credit that Dr. Gallagher did not simply 
dictate a choice, but, rather, put into place a wide-ranging discussion 
that reaches into and outside of the N1ST organization for inputs and 
insights. I agree with Dr. Serum that combining the standards and 
technology development within each general laboratory entity has strong 
benefits. The primary role of NIST is measurement and this often 
requires research and experimentation into new technology and even 
fundamental physics. Standards coordination and development may also 
hinge on laboratory-oriented work so making an organizational unit 
accountable for the science and technology needed for standards work 
creates incentive for mutual reinforcement.
    It has become apparent that the needs expressed by NIST's 
constituencies, including the Congress, private sector and other U.S. 
Government agencies, manifest as requirements that cross laboratory 
boundaries. One proposed restructuring of the laboratory program into 
Physical Measurement, Material Measurement, Engineering and Information 
Technology has the benefit of a thematic alignment within each 
laboratory and opportunity for better inter-disciplinary collaboration. 
The NIST Associate Director for Laboratory Programs and the Laboratory 
heads would be responsible for assuring that tasks requiring inter-
laboratory cooperation and resources are properly addressed. 
Accountability and clarity of mission in this structure will be the key 
to its success and it seems evident that this is well understood by the 
NIST top management team.

Future Role in International Standards and Federal Agency Coordination

    It has become increasingly evident that the United States faces 
rising competition in manufacturing, outsourcing of information 
technology services, high technology consumer goods and standards-
making initiatives. Countries that had been followers of American or 
European-led standards are not only capable of but are actively 
pursuing the creation of standards. In some countries, the domestic 
market is large enough to justify the establishment of domestic 
standards that can, by virtue of their role in the export markets, 
become de facto international standards. Apart from this potential, the 
high population countries (e.g. China and India) are literally in a 
position to participate in international standards forums in 
overwhelming numbers. To the extent that American products and services 
must compete in an international marketplace, standards are critical 
for interoperability and compatibility with business and consumer 
needs. Coordination of documentary standards development and 
application for domestic and international use is therefore of 
strategic importance.
    NIST has been assigned responsibility in varying degrees and ways 
for cyber-security, health information technology and smart grid 
documentary standards in addition to other standards work in non-IT 
areas. On the international front, the U.S. State Department has formal 
responsibility for coordinating U.S. positions in treaty-based 
standards organizations such as the International Telecommunications 
Union (ITU). In the private sector, the American National Standards 
Institute (ANSI) coordinates private sector and government inputs into 
a broad spectrum of national and international standards. ANSI 
represents U.S. interest in the International Organization for 
Standardization (ISO). There are other organizations that produce 
standards relevant to U.S. interests, notably the Internet Engineering 
Task Force (IETF) that is international in scope and participation.
    Standards have become vital to the production of interoperable, 
competitive products and services. In an international setting, the 
U.S. Government has an interest in and responsibility for adopting 
technical standards policies that are favorable to international trade 
and U.S. private sector access to international markets. It is self-
evident that coherent inter-agency standards positions will serve U.S. 
interests better than an uncoordinated approach. Moreover, to the 
extent that private sector competitors outside the U.S. seek to meet 
domestic business and consumer needs, it is vital that standards be 
developed and adopted that protect both the private sector and U.S. 
Government users of such products and services. As is well expressed in 
Dr. Serum's testimony, NIST is well equipped to serve as the primary 
coordinator for the development of U.S. Government positions on 
documentary standards. The VCAT strongly endorsed this recommendation.

Other Observations

    I note that Dr. Serum mentions the potential elevation of the NEST 
Director to Undersecretary. Given the extraordinary mandates 
historically and especially, recently, assigned to NIST, this elevation 
would be particularly beneficial to the success of an enhanced role for 
NIST in facilitating domestic and international standards development 
and coordinating inter-agency standards policies. Given the 
increasingly important role for technology in America's domestic and 
international enterprise, it seems timely to re-establish an 
Undersecretary position that would have responsibility for technology 
and standards-related issues within the Department of Commerce. Like my 
colleague, Dr. Serum, my only reservation is whether the combined role 
of Undersecretary and Director of NIST would have a material effect on 
the ability of one individual to service both roles. With the right 
organizational infrastructure in place, it would seem feasible.
    I also join Dr. Serum in reiterating the VCAT's very strong support 
for Dr. Gallagher in his role as Director of NIST. He has demonstrated 
a remarkable range of scope and depth in his short tenure in this 
position. In addition to his technical qualifications, he has shown a 
considerable degree of creativity in his approach to management, 
priority-setting and organizational structure. I am confident in Dr. 
Gallagher's leadership and very much looking forward to the work that 
lies ahead for the VCAT in supporting the work of NIST.

                      Biography for Vinton G. Cerf
    Vinton G. Cerf has served as Vice President and Chief Internet 
Evangelist for Google since October 2005. In this role, he is 
responsible for identifying new enabling technologies to support the 
development of advanced, Internet-based products and services from 
Google. Cerf is the former senior vice president of Technology Strategy 
and Architecture and Technology for MCI. Widely known as one of the 
``Fathers of the Internet,'' Cerf is the co-designer of the TCP/IP 
protocols and the architecture of the Internet. In December 1997, 
President Clinton presented the U.S. National Medal of Technology to 
Cerf and his colleague, Robert E. Kahn, for founding and developing the 
Internet. Kahn and Cerf were named the recipients of the ACM Alan M. 
Turing award in 2004 for their work on the Internet protocols. The 
Turing award is sometimes called the ``Nobel Prize of Computer 
Science.'' In November 2005, President George Bush awarded Cerf and 
Kahn the Presidential Medal of Freedom for their work. The medal is the 
highest civilian award given by the United States to its citizens. In 
April 2008, Cerf and Kahn received the prestigious Japan Prize.
    Prior to rejoining MCI in 1994, Cerf was vice president of the 
Corporation for National Research Initiatives (CNRI). As vice president 
of MCI Digital Information Services from 1982-1986, he led the 
engineering of MCI Mail, the first commercial e-mail service to be 
connected to the Internet. During his tenure from 1976-82 with the U.S. 
Department of Defense's Advanced Research Projects Agency (DARPA), Cerf 
played a key role leading the development of Internet and Internet-
related packet data and security technologies. Cerf also holds an 
appointment as distinguished visiting scientist at the Jet Propulsion 
Laboratory where he is working on the design of an interplanetary 
Internet.
    Vint Cerf served as chairman of the board of the Internet 
Corporation for Assigned Names and Numbers (ICANN) from 2000-2007. Cerf 
also served as founding president of the Internet Society from 1992-95 
and in 1999 served a term as chairman of the Board. Cerf served as a 
member of the U.S. Presidential Information Technology Advisory 
Committee (PITAC) from 1997 to 2001 and serves on several national, 
state and industry committees focused on cyber-security. Cerf sits on 
the Board of Directors for the Endowment for Excellence in Education, 
the Jet Propulsion Laboratory Advisory Committee and serves as Chair of 
the Visitors Committee on Advanced Technology of the U.S. National 
Institute of Standards and Technology. He also serves as 1st Vice 
President and Treasurer of the National Science & Technology Medals 
Foundation. Cerf is a Fellow of the IEEE, ACM, and American Association 
for the Advancement of Science, the American Academy of Arts and 
Sciences, the International Engineering Consortium, the Computer 
History Museum, the Annenberg Center for Communications at USC, the 
Swedish Royal Academy of Engineering, the American Philosophical 
Society and the U.S. National Academy of Engineering.
    Cerf is a recipient of numerous awards and commendations in 
connection with his work on the Internet. These include the Marconi 
Fellowship, Charles Stark Draper award of the National Academy of 
Engineering, the Prince of Asturias award for science and technology, 
the National Medal of Science from Tunisia, the St. Cyril and St. 
Methodius Order (Grand Cross) of Bulgaria, the Alexander Graham Bell 
Award presented by the Alexander Graham Bell Association for the Deaf, 
the NEC Computer and Communications Prize, the Silver Medal of the 
International Telecommunications Union, the IEEE Alexander Graham Bell 
Medal, the IEEE Koji Kobayashi Award, the ACM Software and Systems 
Award, the ACM SIGCOMM Award, the Computer and Communications 
Industries Association Industry Legend Award, the Kilby Award , the 
Rotary Club International Paul P. Harris Medal, the Joseph Priestley 
Award from Dickinson College, the IEEE Third Millennium Medal, the 
Computerworld/Smithsonian Leadership Award and the Library of Congress 
Bicentennial Living Legend medal. Cerf was inducted into the National 
Inventors Hall of Fame in May 2006. He was made an Eminent Member of 
the IEEE Eta Kappa Nu (HKN) honor society of the IEEE in 2009.
    In December, 1994, People magazine identified Cerf as one of that 
year's ``25 Most Intriguing People.''
    Cerf holds a Bachelor of Science degree in Mathematics from 
Stanford University and Master of Science and Ph.D. degrees in Computer 
Science from UCLA and eighteen honorary degrees.
    His personal interests include fine wine, gourmet cooking and 
science fiction. Cerf and his wife, Sigrid, were married in 1966 and 
have two sons, David and Bennett.





</pre></body></html>
